INDEX TO A PPENDIX
Page No.
A.

Order Denying Petition for Rehearing;
United States Court of Appeals for the Ninth Circuit ....................... 0001
Filed October 28, 2020

B.

Opinion;
United States Court of Appeals for the Ninth Circuit ....................... 0002
Filed September 14, 2020

C.

Memorandum;
United States Court of Appeals for the Ninth Circuit ....................... 0025
Filed January 9, 2020

D.

Order Denying Petition;
United States District Court, District of Nevada ............................... 0035
Filed May 1, 2018

E.

First Amended Petition for Writ of Habeas Corpus By A Person In State
Custody Pursuant to 28 U.S.C. §2254;
United States District Court, District of Nevada ............................... 0065
Filed March 17, 2011

F.

Order Denying Rehearing;
Supreme Court of the State of Nevada ............................................... 0098
Filed May 27, 2008

G.

Order of Affirmance;
Supreme Court of the State of Nevada ............................................... 0099
Filed February 29, 2008

H.

Recorder’s Transcript of Hearing Re: Evidentiary Hearing;
Eighth Judicial District Court ............................................................. 0112
Filed September 5, 2005

I.

Judgment of Conviction (Jury Trial);
Eighth Judicial District Court ............................................................. 0156
Filed July 5, 2005

Case: 18-15892, 10/28/2020, ID: 11874122, DktEntry: 52, Page 1 of 1

App. 0001
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
OCT 28 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

GERALD VON TOBEL,
Petitioner-Appellant,
v.
JAMES BENEDETTI; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

No.

18-15892

D.C. No.
3:10-cv-00073-LRH-VPC
District of Nevada,
Reno
ORDER

Respondents-Appellees.
Before: SILER,* BYBEE, and R. NELSON, Circuit Judges.
Judge R. Nelson has voted to deny Appellant’s petition for rehearing en banc
(Dkt. No. 51), and Judges Siler and Bybee so recommend.
The full court has been advised of the petition for rehearing en banc, and no
judge of the court has requested a vote on it.
Appellant’s petition for rehearing en banc is DENIED.

*

The Honorable Eugene E. Siler, United States Circuit Judge for the
U.S. Court of Appeals for the Sixth Circuit, sitting by designation.

(1 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 1 of 19

App. 0002

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

GERALD VON TOBEL,
Petitioner-Appellant,
v.
JAMES BENEDETTI; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,
Respondents-Appellees.

No. 18-15892
D.C. No.
3:10-cv-00073LRH-VPC

OPINION

Appeal from the United States District Court
for the District of Nevada
Larry R. Hicks, District Judge, Presiding
Argued and Submitted December 2, 2019
San Francisco, California
Filed September 14, 2020
Before: Eugene E. Siler, * Jay S. Bybee, and
Ryan D. Nelson, Circuit Judges.
Opinion by Judge Siler

*

The Honorable Eugene E. Siler, United States Circuit Judge for the
U.S. Court of Appeals for the Sixth Circuit, sitting by designation.

(2 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 2 of 19

App. 0003

2

VON TOBEL V. BENEDETTI
SUMMARY **

Habeas Corpus
The panel withdrew a memorandum disposition filed
January 9, 2020; filed a published opinion affirming the
district court’s denial of Nevada state prisoner Gerald Von
Tobel’s habeas corpus petition; denied a petition for
rehearing; and denied on behalf of the court a petition for
rehearing en banc, in a case in which a juror, during the trial,
had a conversation with a police-officer neighbor who told
the juror something to the effect that a defendant in a
criminal trial would not be there if he had not done
something wrong.
Von Tobel contended that the test used by the Nevada
Supreme Court to evaluate juror misconduct in his case was
“contrary to, or involved an unreasonable application of,
clearly established Federal law,” 28 U.S.C. § 2254(d)(1),
because it placed a more onerous burden on him to prove
prejudice than under the applicable Supreme Court
precedent and because it did not presume that the contact
was prejudicial.
The panel observed that there was no decision of the
United States Supreme Court that precludes the Nevada
Supreme Court from requiring the petitioner to show a
reasonable probability or likelihood that the contact affected
the verdict. Applying AEDPA’s highly deferential standard,
the panel therefore concluded that the Nevada Supreme
**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

(3 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 3 of 19

App. 0004

VON TOBEL V. BENEDETTI

3

Court’s test to evaluate juror misconduct—and the
application of it in this case—is not contrary to, nor does it
involve an unreasonable application of, clearly established
Federal law.

COUNSEL
Kimberly Sandberg (argued), Jonathan Kirshbaum, and
Ryan Norwood, Assistant Federal Public Defenders; Rene
L. Valladares, Federal Public Defender; Office of the
Federal Public Defender, Las Vegas, Nevada; for PetitionerAppellant.
Natasha M. Gebrael (argued) and Ashley A. Balducci,
Deputy Attorneys General; Aaron D. Ford, Attorney
General, Office of the Attorney General, Las Vegas,
Nevada; for Respondents-Appellees.

ORDER
The memorandum disposition filed January 9, 2020 is
withdrawn. A published opinion authored by Judge Siler is
filed concurrently with this order.
The panel judges have voted to deny appellant’s petition
for rehearing.
Judge R. Nelson voted to deny the petition for rehearing
en banc, and Judges Siler and Bybee recommended denying
the petition for rehearing en banc.

(4 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 4 of 19

App. 0005

4

VON TOBEL V. BENEDETTI

The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P. 35.
Appellant’s petition for rehearing and petition for
rehearing en banc, filed March 24, 2020, is DENIED.

OPINION
SILER, Circuit Judge:
Gerald Von Tobel, a Nevada state prisoner, appeals from
the district court’s denial of his petition for a writ of habeas
corpus. During Von Tobel’s trial, one of the jurors had a
conversation with a neighbor who is a police officer about
difficulties the juror was having in the case. Sometime
during the conversation, the police officer neighbor told the
juror something to the effect that a defendant in a criminal
trial would not be there if he had not done something wrong.
In evaluating this contact on direct appeal, the Nevada
Supreme Court applied its own test for evaluating juror
misconduct and concluded that Von Tobel had not met his
burden to show prejudice. In his petition for a writ of habeas
corpus, Von Tobel contends that the test used by the Nevada
Supreme Court to evaluate juror misconduct in his case was
“contrary to, or involved an unreasonable application of,
clearly established Federal law,” 28 U.S.C. § 2254(d)(1),
because it placed a more onerous burden on him to prove
prejudice than under the applicable Supreme Court
precedent and because it did not presume that the contact
was prejudicial. We hold that the Nevada Supreme Court’s
test to evaluate juror misconduct—and the application of it
in Von Tobel’s case—is not contrary to, nor does it involve

(5 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 5 of 19

App. 0006

VON TOBEL V. BENEDETTI

5

an unreasonable application of, clearly established Federal
law and we affirm the district court’s denial of Von Tobel’s
habeas petition.
I.
Von Tobel was convicted in 2005 of numerous counts of
physical and sexual abuse of his girlfriend’s three children.
At trial, the only direct evidence of abuse was the testimony
of the children.
Their testimony included some
inconsistencies, such as not remembering incidents of abuse
that they had previously disclosed. Von Tobel testified and
denied the allegations.
The jury deliberated across four days for a total of around
twenty hours. During deliberations, the jury sent several
notes to the judge indicating they were having trouble
reaching a verdict on some of the charges. Each time the
judge instructed them to continue deliberating. The jury
eventually reached a unanimous verdict on all counts,
finding Von Tobel guilty on twenty-five counts (one of
which was not guilty but guilty of a lesser offense) and not
guilty on one count. 1
After the jury was released, the judge invited them to
“stay and chat” with the attorneys to “discuss the case.”
When asked what factors in the case had an impact on the
verdict, Juror No. 200 stated: “It’s like my neighbor, who is
a cop, always says, ‘[h]e wouldn’t be here if he didn’t do
something.’” This comment resulted in a motion for a new
trial and an evidentiary hearing.

1

In addition, one count had been previously withdrawn by the State.

(6 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 6 of 19

App. 0007

6

VON TOBEL V. BENEDETTI

At the evidentiary hearing, Juror No. 200 was called as a
witness. He clarified that the conversation with his neighbor
occurred during trial, prior to deliberations. Juror No. 200
said that he barely knew his neighbor and that he believed
that his neighbor worked for a different police department
than the one involved in the case. Juror No. 200 explained
that the conversation with his neighbor occurred when he
went out to the community mailbox in his neighborhood and
ran into his neighbor. He told the neighbor “[y]ou know, I
don’t know how you put up with this stuff that you have to
do with.” The neighbor replied “oh[] [i]t’s just [what] you
have to do.” Juror No. 200 then said that he was on jury duty
and having a tough time because “stuff that’s going on here
that just makes me sick. Matter of fact, I have a hard time
sleepin’ with it as a result of it.” During the conversation,
the neighbor told Juror No. 200 about an unrelated case in a
different jurisdiction where “a kid got killed in a gang
something or other” and some people had already “plead out
[and were] serving time while others were waiting to go to
Court.” Sometime during the conversation—Juror No. 200
does not remember when—the neighbor said something to
the effect of “if they’re here, they’re here for a reason” or
that “[h]e wouldn’t be here if he didn’t do something.”
During the evidentiary hearing, Juror No. 200 stated that
he: (1) understood the presumption of innocence and that it
applied to Von Tobel; (2) did not make up his mind about
Von Tobel’s guilt before deliberations; and (3) changed his
mind several times about Von Tobel’s guilt during
deliberations. Regarding the conversation with his neighbor,
Juror No. 200 said that: (1) it did not affect his ability to keep
an open mind while hearing the evidence; (2) he did not
conclude from his neighbor’s comment that Von Tobel must
have done something otherwise he would not be in court;

(7 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 7 of 19

App. 0008

VON TOBEL V. BENEDETTI

7

and (3) the conversation had no influence on his thought
process, on how he viewed the evidence, or on the verdict.
The court found that Juror No. 200 violated the court’s
order not to discuss the case. But the court denied Von
Tobel’s motion for a new trial, explaining that Juror No. 200
“never swayed in his belief that he was obligated to listen to
the facts and the evidence in this case, and render a verdict
only after he listened to all of the witnesses, saw all of the
evidence, and began deliberation with his fellow jurors.”
The court added that Juror No. 200 “never wa[i]vered with
respect to the presumption of innocence,” did not have a
preconceived idea about Von Tobel’s guilt, and that the
conversation with his neighbor “did not affect his belief or
reliance upon the presumption of innocence.” Finally, the
court concluded that there was no evidence that Juror No.
200 discussed the nature of the case with his neighbor, or
that the conversation had any influence on the determination
of guilt or on the presumption of innocence.
On appeal, the Nevada Supreme Court conducted a de
novo review of the trial court’s decision. The test for
allegations of juror misconduct in Nevada comes from
Meyer v. State, 80 P.3d 447 (Nev. 2003). Under it, a motion
for a new trial based on allegations of juror misconduct has
the burden to show that (1) the misconduct occurred and
(2) the misconduct prejudiced the defendant. Id. at 455.
When the misconduct is egregious, the Nevada Supreme
Court applies a conclusive presumption of prejudice without
any showing of prejudice. Id. When the misconduct is not
egregious, the defendant must prove prejudice by showing
that, in reviewing the trial as a whole, there was “a
reasonable probability or likelihood that the juror
misconduct affected the verdict.” Id. at 456.

(8 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 8 of 19

App. 0009

8

VON TOBEL V. BENEDETTI

The Nevada Supreme Court found that Juror No. 200
committed misconduct. Von Tobel v. State, No. 45684, at *3
(Nev. Feb. 29, 2008). But it determined that this was not an
egregious case—triggering the conclusive presumption of
prejudice—because Juror No. 200 did not discuss the facts
of the case with his neighbor. Id. As a non-egregious case,
Von Tobel had the burden to show prejudice. Id. The
Nevada Supreme Court concluded that Von Tobel failed to
show a reasonable probability that exposure to the
neighbor’s opinion affected the verdict because: (1) the
conversation did not include any details of the case; (2) jury
instructions occurred after the conversation; and (3) the jury
was instructed on the presumption of innocence and jurors
are presumed to have followed the judge’s instructions. Id.
at 4–5.
Von Tobel filed a habeas petition in the district court
arguing that the Nevada Supreme Court’s test from Meyer—
both itself and as applied here—was contrary to clearly
established federal law. Specifically, we have held that a test
derived from two Supreme Court cases from 1892 and 1954
constitutes clearly established federal law for evaluating a
juror’s contact with an outside party. Godoy v. Spearman,
861 F.3d 956, 964 (9th Cir. 2017) (en banc); see Remmer v.
United States, 347 U.S. 227 (1954); Mattox v. United States,
146 U.S. 140 (1892). Thus, Von Tobel contended that the
Meyer test itself and as applied to him was contrary to, or an
unreasonable application of, Mattox and Remmer because it
placed a more onerous burden on him to prove prejudice and
it did not presume that Juror No. 200’s contact with his
neighbor was prejudicial.
The district court reviewed the burden on the defendant
under Meyer and under Mattox/Remmer and found them
similar enough that Meyer was not clearly contrary to

(9 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 9 of 19

App. 0010

VON TOBEL V. BENEDETTI

9

Mattox/Remmer. The district court also found that no
contrary decision of the Supreme Court prevented the
Nevada Supreme Court from concluding that Juror No.
200’s contact with his neighbor was non-egregious—thus
not triggering a presumption of prejudice. Finally, the
district court noted that Godoy approvingly cited Tarango v.
McDaniel, 837 F.3d 936 (9th Cir. 2016)—and a footnote in
Tarango, 837 F.3d at 950 n.13, can be read as suggesting
that that the Meyer test is compatible with clearly established
federal law—undercutting the contention that at the time of
the Nevada Supreme Court’s decision in 2008, Meyer was
clearly incompatible with Mattox/Remmer.
II.
A district court’s denial of a petition for habeas corpus
under 28 U.S.C. § 2254 is reviewed de novo. Dows v. Wood,
211 F.3d 480, 484 (9th Cir. 2000). A federal court cannot
grant a petition for habeas corpus to a prisoner in state
custody for a claim that was adjudicated on the merits in state
court unless the adjudication of the claim (1) “resulted in a
decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as
determined by the Supreme Court of the United States” or
(2) “resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented
in the State court proceeding.” 28 U.S.C. § 2254(d). A state
court decision is “contrary to” Supreme Court precedent “if
the state court arrives at a conclusion opposite to that reached
by [the Supreme] Court on a question of law or if the state
court decides a case differently than [the Supreme] Court has
on a set of materially indistinguishable facts.” Williams v.
Taylor, 529 U.S. 362, 412–13 (2000). “An unreasonable
application of clearly established federal law must be
‘objectively unreasonable, not merely wrong; even clear

(10 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 10 of 19

App. 0011

10

VON TOBEL V. BENEDETTI

error will not suffice.’” Rowland v. Chappell, 876 F.3d
1174, 1181 (9th Cir. 2017) (quoting White v. Woodall,
572 U.S. 415, 419 (2014)). Rather, “a state prisoner must
show that the state court’s ruling on the claim being
presented in federal court was so lacking in justification that
there was an error well understood and comprehended in
existing law beyond any possibility for fairminded
disagreement.” Id. (quoting Woodall, 572 U.S. at 419–20).
“If Supreme Court precedent does not provide a ‘clear
answer to the question presented,’ the state court’s decision
cannot be contrary to, or have unreasonably applied, clearly
established federal law.” Turner v. McEwen, 819 F.3d 1171,
1176 (9th Cir. 2016) (quoting Wright v. Van Patten, 552 U.S.
120, 126 (2008) (per curiam)).
We review “the last reasoned state court decision to
address the claim[s].” White v. Ryan, 895 F.3d 641, 665 (9th
Cir. 2018). Here, the last such decision is the Nevada
Supreme Court’s denial of Von Tobel’s direct appeal.
A.
After the Nevada Supreme Court’s decision in this case,
this court recognized that a two-part test derived from two
Supreme Court cases—Remmer and Mattox—constitutes
clearly established federal law for analyzing improper
contacts between jurors and outside parties. See Godoy,
861 F.3d at 964. Von Tobel contends that the test from
Meyer, used by the Nevada Supreme Court to evaluate the
contact between Juror No. 200 and his neighbor is contrary
to, or an unreasonable application of, the Mattox/Remmer
test. It is not.
The Nevada Supreme Court did not use the
Mattox/Remmer framework to analyze the contact between
Juror No. 200 and his neighbor. Neither case is cited in its

(11 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 11 of 19

App. 0012

VON TOBEL V. BENEDETTI

11

opinion, but this is not required. See Early v. Packer,
537 U.S. 3, 8 (2002) (per curiam). Instead, it applied its own
test for analyzing juror misconduct, such as a juror’s having
contact with a third-party, which it developed in Meyer. 2
Under Meyer, the defendant must show that the misconduct
(1) occurred and (2) prejudiced him. 80 P.3d at 455. To
show prejudice, the defendant must show that “there is a
reasonable probability or likelihood that the juror
misconduct affected the verdict.” Id. In egregious cases,
such as jury tampering, prejudice is conclusively presumed
without the defendant’s having to show prejudice; in nonegregious cases, the defendant has the burden to show
prejudice. Id. at 455–56.
Because of the obvious structural differences between
these two tests, we begin by comparing them before
considering the defendant’s burden under each. The first
step of the Meyer test—that the misconduct occurred—is not
explicitly part of the Mattox/Remmer framework. Instead it
is an implicit “step zero” in the analysis because
Mattox/Remmer step one presupposes that there was a
contact, since it asks “whether the contact was ‘possibly
prejudicial.’” See Godoy, 861 F.3d at 962 (quoting Mattox,
146 U.S. at 150). Thus, Meyer step one is consistent with
the Mattox/Remmer framework.
The second step of Meyer—that the misconduct
prejudiced the defendant—differs depending on whether the
extrinsic influence on the juror was egregious or not. If
egregious, prejudice is conclusively presumed and the
defendant does not have to make any showing of prejudice.
Meyer, 80 P.3d at 455. If not egregious, the burden is on the
2

Meyer cites to Remmer but not Mattox. See Meyer, 80 P.3d at 455
n.23, n.26.

(12 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 12 of 19

App. 0013

12

VON TOBEL V. BENEDETTI

defendant to show “a reasonable probability or likelihood
that the juror misconduct affected the verdict.” Id. Meyer
step two, then, is analogous to Mattox/Remmer step one as
they both ask whether there was prejudice. Meyer’s placing
the burden on the defendant to show prejudice is consistent
with Mattox/Remmer. See Remmer, 347 U.S. at 228–29 (not
specifically addressing who has the burden but stating that
the defendant submitted evidence in support of his motion);
Mattox, 146 U.S. at 142 (same); see also Godoy, 861 F.3d
at 967 (stating that the defendant must present evidence of a
prejudicial contact at step one).
Von Tobel contends that Meyer is contrary to
Mattox/Remmer because it placed a more onerous burden on
him to show prejudice. Von Tobel misreads Meyer. Meyer
only requires the petitioner to show “a reasonable probability
or likelihood that the juror misconduct affected the verdict”
in order to prevail on a motion for a new trial. 80 P.3d
at 455. The Nevada Supreme Court had defined a
reasonable probability as a “probability sufficient to
undermine confidence in the outcome.” Lobato v. State,
96 P.3d 765, 772 (Nev. 2004) (quoting Strickland v.
Washington, 466 U.S. 668, 694 (1984)). In Godoy, we
described the petitioner’s burden under Mattox/Remmer as
requiring the petitioner to present “evidence of an external
contact that has a tendency to be injurious to the defendant”
or “evidence of a contact sufficiently improper as to raise a
credible risk of affecting the outcome of the case.” 861 F.3d
at 967 (internal quotation marks and citations omitted). “[A]
probability sufficient to undermine confidence in the
outcome,” Lobato, 96 P.3d at 772, is similar to “rais[ing] a
credible risk of affecting the outcome,” Godoy, 861 F.3d at
967. And, most importantly, neither Mattox nor Remmer
precisely delineates the petitioner’s burden. So, even if the
burdens under Meyer and Godoy are different, there was no

(13 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 13 of 19

App. 0014

VON TOBEL V. BENEDETTI

13

decision of the Supreme Court that precludes the Nevada
Supreme Court from requiring the petitioner to show a
reasonable probability or likelihood that the contact affected
the verdict. See Wright v. Van Patten, 552 U.S. 120, 126
(2008) (per curiam) (stating that Supreme Court cases must
give a “clear answer to the question presented” to be clearly
established federal law).
1.
We emphasize that what we have said beyond what the
Supreme Court has held to “refine or sharpen” a defendant’s
burden is not clearly established Federal law. Lopez v.
Smith, 574 U.S. 1, 7 (2014) (per curiam) (quoting Marshall
v. Rodgers, 569 U.S. 58, 64 (2013) (per curiam)). Our
various formulations of Mattox/Remmer step one to require
that the contact “raise[] a risk of,” Caliendo v. Warden of
Cal. Men’s Colony, 365 F.3d 691, 697 (9th Cir. 2004), “raise
a credible risk of,” Tarango, 837 F.3d at 947, or be
“sufficiently improper as to raise a credible risk of,” Godoy,
861 F.3d at 967, “influencing the verdict” or “affecting the
outcome of the case,” Godoy, 861 F.3d at 967, do not appear
in Mattox/Remmer or any Supreme Court precedent and are
thus not clearly established Federal law. See Parker v.
Matthews, 567 U.S. 37, 48–49 (2012) (per curiam). As a
result, Von Tobel cannot invoke our more precise
formulations of the defendant’s burden to claim that the
Nevada Supreme Court’s formulation is more onerous than
our formulation, and thus contrary to Mattox/Remmer. See
id.; Smith, 574 U.S. at 6–7.
Mattox does not make clear how much of a “tendency. . .
[to be] injurious to the defendant” is required; that is, how
certain or likely prejudice has to be for the defendant to meet
his burden. 146 U.S. at 150. As a result, a defendant’s
burden under Meyer falls within the range allowed by

(14 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 14 of 19

App. 0015

14

VON TOBEL V. BENEDETTI

Supreme Court precedent. There is no clearly established
Supreme Court precedent which holds that a defendant’s
burden to show that a contact was “possibly prejudicial” is
less onerous than “a reasonable probability or likelihood that
the juror misconduct affected the verdict,” Meyer, 80 P.3d at
455, or “a probability sufficient to undermine confidence in
the outcome,” Lobato, 96 P.3d at 772 (quoting Strickland,
466 U.S. at 694).
Our cases further articulating the defendant’s burden
confirm this conclusion. We believe our explanations of the
defendant’s burden under Mattox/Remmer are consistent
with, and faithful interpretations of, Supreme Court
precedent. In explaining the defendant’s burden, we have
repeatedly recognized the contribution that Smith v. Phillips,
455 U.S. 209 (1982), has made to the Mattox/Remmer
framework at step one. 3 See Caliendo, 365 F.3d at 696; see
also Clark v. Chappell, 936 F.3d 944, 970 (9th Cir. 2019);
Godoy, 861 F.3d at 967; Tarango, 837 F.3d at 947. Our
cases addressing the defendant’s burden largely focus on
incorporating Phillips into step one of the framework. See
Clark, 936 F.3d at 944 (citing Phillips before concluding that
a defendant is required to show a “sufficiently improper”
contact that “gives rise to a ‘credible risk of affecting the
outcome of the case’” (quoting Godoy, 861 F.3d at 967));
Godoy, 861 F.3d at 967 (reviewing Phillips before
formulating the defendant’s burden as requiring the
3

That Phillips affected the Mattox/Remmer framework is consistent
with our statement in Godoy that “[Phillips] left Mattox and Remmer
intact.” Godoy, 861 F.3d at 964 n.3. In that footnote, we were
considering whether the Mattox/Remmer two-step framework continued
to exist post-Phillips. Id. We held that the framework still existed. Id.
We certainly did not hold that Phillips had no effect on the framework
in the footnote, as we also relied on Phillips to clarify the defendant’s
step-one burden. Id. at 967.

(15 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 15 of 19

App. 0016

VON TOBEL V. BENEDETTI

15

defendant to “present evidence of a contact sufficiently
improper as to raise a credible risk of affecting the outcome
of the case”); Tarango, 837 F.3d at 936 (noting Phillips
before concluding that “‘prosaic kinds of jury misconduct’
do not trigger a presumption of prejudice” (quoting Dutkel,
192 F.3d at 894–95)); Caliendo, 365 F.3d at 696–97
(reviewing Phillips and another case as support for the
conclusion that a defendant must show that the contact
“raises a risk of influencing the verdict”). After providing
several variations of the defendant’s burden, in Godoy we
settled on requiring a defendant to show that the contact was
“sufficiently improper as to raise a credible risk of affecting
the outcome of the case,” or of “influencing the verdict.”
Godoy, 861 F.3d at 967, 970. Our standard thus falls
between requiring more than a theoretical possibility of
prejudice and less than actual prejudice.
The burden under Meyer is not contrary to
Mattox/Remmer. Indeed, it is nearly identical to our
formulation of Mattox/Remmer. Both tests look at the effect
of the contact on the verdict or outcome. Compare Meyer,
80 P.3d at 455 (whether the contact “affected the verdict”);
and Lobato, 96 P.3d at 772 (whether the contact
“undermine[d] confidence in the outcome”); with Godoy,
861 F.3d at 967 (whether the contact has a risk of
“influencing the verdict” or “affecting the outcome of the
case” (quoting Tarango, 837 F.3d at 947)). And both tests
require a similar level of certainty that there was prejudice.
Compare Meyer, 80 P.3d at 455 (“reasonable probability or
likelihood”) and Lobato, 96 P.3d at 772 (“a probability
sufficient to”); with Godoy, 861 F.3d at 967 (“sufficiently
improper as to raise a credible risk”).

(16 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 16 of 19

App. 0017

16

VON TOBEL V. BENEDETTI
2.

Von Tobel’s reliance on the relationship between the
defendant’s burden under Meyer and the test from Strickland
is misplaced. Meyer requires a defendant to show “a
reasonable probability or likelihood that the juror
misconduct affected the verdict,” Meyer, 80 P.3d at 455, and
the Nevada Supreme Court’s definition of a “reasonable
probability” comes from Strickland. Because the Supreme
Court has said that “[s]urmounting Strickland ’s high bar is
never an easy task,” Padilla, 559 U.S. at 371, Von Tobel
argues that his burden under Meyer must also be a “high
bar,” and thus is contrary to the “low threshold” under
Mattox/Remmer. To begin with, although we have said that
the defendant’s burden under Mattox/Remmer is a “low
threshold,” that description is our own and not attributable
to the Supreme Court. Caliendo, 365 F.3d at 697 (stating
that “the Mattox rule applies when an unauthorized
communication with a juror crosses a low threshold to create
the potential for prejudice” without citing to any Supreme
Court precedent for that description). But even if it were, we
cannot say that the burden under Meyer is inconsistent with
this pronouncement.
The principal problem with Von Tobel’s Strickland
argument is that he conflates the Strickland test as a whole
with a part of it. To establish ineffective assistance of
counsel under Strickland, “a defendant must show both
deficient performance by counsel and prejudice.” Knowles
v. Mirzayance, 556 U.S. 111, 122 (2009). On the deficient
performance prong, a defendant must show that his or her
“counsel’s representation fell below an objective standard of
reasonableness.” Strickland, 466 U.S. at 688. On the
prejudice prong, a defendant must show “a reasonable
probability that, but for counsel’s unprofessional errors, the

(17 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 17 of 19

App. 0018

VON TOBEL V. BENEDETTI

17

result of the proceeding would have been different.” Id. at
694. “A reasonable probability is a probability sufficient to
undermine confidence in the outcome.” Id. The Nevada
Supreme Court’s definition of “reasonable probability” is
the same and that definition comes from Strickland. See
Lobato, 96 P.3d at 772. But it is not the “reasonable
probability” standard in the prejudice prong that makes
“[s]urmounting Strickland’s high bar [] never an easy task.”
Padilla, 559 U.S. at 371. Rather, the highly deferential
review courts are to give counsel’s performance and the
likelihood that attorney error would be harmless in a
particular case make it difficult to surmount. See id. at 371–
72 (citing these parts of the Strickland test as support for the
statement that Strickland is a high bar). Thus, on the
prejudice prong, it is not the requirement that the defendant
show a “reasonable probability” that makes it hard to meet;
instead, it is what the defendant must show a “reasonable
probability” of—“that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different,” Strickland, 466 U.S. at 694. Thus, it is the other
parts of the test and the test as a whole, not the reasonable
probability standard, which makes Strickland such a high
standard. As a result, that the definition of reasonable
probability originates from Strickland does not lead to the
conclusion that the defendant’s burden is not a low threshold
or that the defendant’s burden must be contrary to
Mattox/Remmer.
Therefore, under AEDPA’s “highly deferential
standard,” Woodford v. Visciotti, 537 U.S. 19, 24 (2002) (per
curiam) (quoting Lindh v. Murphy, 521 U.S. 320, 333 n.7
(1997)), we cannot say that requiring the petitioner to show
“a reasonable probability or likelihood that [the contact]
affected the verdict” is contrary to, or involves an

(18 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 18 of 19

App. 0019

18

VON TOBEL V. BENEDETTI

unreasonable application of, Supreme Court precedent, Van
Patten, 442 U.S. at 126.
B.
Even considering Von Tobel’s argument without his
having conflated the two presumptions of prejudice—that
the Nevada Supreme Court unreasonably applied
Mattox/Remmer in his case because it did not find that he
had met his step one burden to show possible prejudice—he
cannot meet his burden under AEDPA to show that
Mattox/Remmer were unreasonably applied. See Rowland,
876 F.3d at 1181 (requiring a state court prisoner to show
that “the state court’s ruling on the claim being presented in
federal court was so lacking in justification that there was an
error well understood and comprehended in existing law
beyond any possibility for fairminded disagreement”
(quoting Woodall, 572 U.S. at 419–20)). We have provided
that, to determine whether the defendant has met his or her
burden to show possible prejudice, courts can consider a
variety of factors, including: (1) whether the communication
concerned the case; (2) the length and nature of the contact;
(3) the identity and role at trial of the parties involved;
(4) evidence of the actual impact on the juror; and (5) the
possibility of eliminating prejudice through limiting
instructions. Caliendo, 365 F.3d 697–98; see also United
States v. Angulo, 4 F.3d 843, 847 (9th Cir. 1993) (stating that
a court can consider “the content of the allegations, the
seriousness of the alleged misconduct or bias, and the
credibility of the source” in determining if the defendant has
met his or her burden).
C.
Von Tobel requests that we expand the certificate of
appealability to include his claims of actual innocence and

(19 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-1, Page 19 of 19

App. 0020

VON TOBEL V. BENEDETTI

19

ineffective assistance of counsel.
See 28 U.S.C.
§ 2253(c)(1); 9th Cir. R. 22-1(e). We decline to do so
because he has not made a “substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2).
III.
For these reasons, the district court correctly denied Von
Tobel’s petition for a writ of habeas corpus under 28 U.S.C.
§ 2254.
AFFIRMED.

(20 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-2, Page 1 of 4

App. 0021
United States Court of Appeals for the Ninth Circuit
Office of the Clerk
95 Seventh Street
San Francisco, CA 94103
Information Regarding Judgment and Post-Judgment Proceedings
Judgment
•
This Court has filed and entered the attached judgment in your case.
Fed. R. App. P. 36. Please note the filed date on the attached
decision because all of the dates described below run from that date,
not from the date you receive this notice.
Mandate (Fed. R. App. P. 41; 9th Cir. R. 41-1 & -2)
•
The mandate will issue 7 days after the expiration of the time for
filing a petition for rehearing or 7 days from the denial of a petition
for rehearing, unless the Court directs otherwise. To file a motion to
stay the mandate, file it electronically via the appellate ECF system
or, if you are a pro se litigant or an attorney with an exemption from
using appellate ECF, file one original motion on paper.
Petition for Panel Rehearing (Fed. R. App. P. 40; 9th Cir. R. 40-1)
Petition for Rehearing En Banc (Fed. R. App. P. 35; 9th Cir. R. 35-1 to -3)
(1)

A.
•

•

B.
•

Purpose (Panel Rehearing):
A party should seek panel rehearing only if one or more of the following
grounds exist:
►
A material point of fact or law was overlooked in the decision;
►
A change in the law occurred after the case was submitted which
appears to have been overlooked by the panel; or
►
An apparent conflict with another decision of the Court was not
addressed in the opinion.
Do not file a petition for panel rehearing merely to reargue the case.
Purpose (Rehearing En Banc)
A party should seek en banc rehearing only if one or more of the following
grounds exist:

Post Judgment Form - Rev. 12/2018

1

(21 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-2, Page 2 of 4

App. 0022
►
►
►

Consideration by the full Court is necessary to secure or maintain
uniformity of the Court’s decisions; or
The proceeding involves a question of exceptional importance; or
The opinion directly conflicts with an existing opinion by another
court of appeals or the Supreme Court and substantially affects a
rule of national application in which there is an overriding need for
national uniformity.

(2)

Deadlines for Filing:
•
A petition for rehearing may be filed within 14 days after entry of
judgment. Fed. R. App. P. 40(a)(1).
•
If the United States or an agency or officer thereof is a party in a civil case,
the time for filing a petition for rehearing is 45 days after entry of judgment.
Fed. R. App. P. 40(a)(1).
•
If the mandate has issued, the petition for rehearing should be
accompanied by a motion to recall the mandate.
•
See Advisory Note to 9th Cir. R. 40-1 (petitions must be received on the
due date).
•
An order to publish a previously unpublished memorandum disposition
extends the time to file a petition for rehearing to 14 days after the date of
the order of publication or, in all civil cases in which the United States or an
agency or officer thereof is a party, 45 days after the date of the order of
publication. 9th Cir. R. 40-2.

(3)

Statement of Counsel
•
A petition should contain an introduction stating that, in counsel’s
judgment, one or more of the situations described in the “purpose” section
above exist. The points to be raised must be stated clearly.

(4)

Form & Number of Copies (9th Cir. R. 40-1; Fed. R. App. P. 32(c)(2))
•
The petition shall not exceed 15 pages unless it complies with the
alternative length limitations of 4,200 words or 390 lines of text.
•
The petition must be accompanied by a copy of the panel’s decision being
challenged.
•
An answer, when ordered by the Court, shall comply with the same length
limitations as the petition.
•
If a pro se litigant elects to file a form brief pursuant to Circuit Rule 28-1, a
petition for panel rehearing or for rehearing en banc need not comply with
Fed. R. App. P. 32.

Post Judgment Form - Rev. 12/2018

2

(22 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-2, Page 3 of 4

•

•

The petition or answer must be accompanied by a Certificate of Compliance
App. 0023
found at Form 11, available on our website at www.ca9.uscourts.gov under
Forms.
You may file a petition electronically via the appellate ECF system. No paper copies are
required unless the Court orders otherwise. If you are a pro se litigant or an attorney
exempted from using the appellate ECF system, file one original petition on paper. No
additional paper copies are required unless the Court orders otherwise.

Bill of Costs (Fed. R. App. P. 39, 9th Cir. R. 39-1)
•
The Bill of Costs must be filed within 14 days after entry of judgment.
•
See Form 10 for additional information, available on our website at
www.ca9.uscourts.gov under Forms.
Attorneys Fees
•
Ninth Circuit Rule 39-1 describes the content and due dates for attorneys fees
applications.
•
All relevant forms are available on our website at www.ca9.uscourts.gov under Forms
or by telephoning (415) 355-7806.
Petition for a Writ of Certiorari
•
Please refer to the Rules of the United States Supreme Court at
www.supremecourt.gov
Counsel Listing in Published Opinions
•
Please check counsel listing on the attached decision.
•
If there are any errors in a published opinion, please send a letter in writing
within 10 days to:
►
Thomson Reuters; 610 Opperman Drive; PO Box 64526; Eagan, MN 55123
(Attn: Jean Green, Senior Publications Coordinator);
►
and electronically file a copy of the letter via the appellate ECF system by using
“File Correspondence to Court,” or if you are an attorney exempted from using
the appellate ECF system, mail the Court one copy of the letter.

Post Judgment Form - Rev. 12/2018

3

(23 of 23)
Case: 18-15892, 09/14/2020, ID: 11822029, DktEntry: 50-2, Page 4 of 4

App. 0024
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 10. Bill of Costs
Instructions for this form: http://www.ca9.uscourts.gov/forms/form10instructions.pdf

9th Cir. Case Number(s)
Case Name
The Clerk is requested to award costs to (party name(s)):

I swear under penalty of perjury that the copies for which costs are requested were
actually and necessarily produced, and that the requested costs were actually
expended.
Signature

Date

(use “s/[typed name]” to sign electronically-filed documents)
REQUESTED
(each column must be completed)

COST TAXABLE
DOCUMENTS / FEE PAID
Excerpts of Record*

No. of
Copies

Pages per
Cost per Page
Copy

TOTAL
COST

$

$

$

$

Reply Brief / Cross-Appeal Reply Brief

$

$

Supplemental Brief(s)

$

$

Principal Brief(s) (Opening Brief; Answering
Brief; 1st, 2nd , and/or 3rd Brief on Cross-Appeal;
Intervenor Brief)

Petition for Review Docket Fee / Petition for Writ of Mandamus Docket Fee

$

TOTAL: $
*Example: Calculate 4 copies of 3 volumes of excerpts of record that total 500 pages [Vol. 1 (10 pgs.) +
Vol. 2 (250 pgs.) + Vol. 3 (240 pgs.)] as:
No. of Copies: 4; Pages per Copy: 500; Cost per Page: $.10 (or actual cost IF less than $.10);
TOTAL: 4 x 500 x $.10 = $200.
Feedback or questions about this form? Email us at forms@ca9.uscourts.gov

Form 10

Rev. 12/01/2018

(1 of 10)
Case: 18-15892, 01/09/2020, ID: 11555982, DktEntry: 44-1, Page 1 of 6

App. 0025
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
JAN 9 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
GERALD VON TOBEL,
Petitioner-Appellant,

No.

U.S. COURT OF APPEALS

18-15892

D.C. No.
3:10-cv-00073-LRH-VPC

v.
JAMES BENEDETTI; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

MEMORANDUM*

Respondents-Appellees.
Appeal from the United States District Court
for the District of Nevada
Larry R. Hicks, District Judge, Presiding
Argued and Submitted December 2, 2019
San Francisco, California
Before: SILER,** BYBEE, and R. NELSON, Circuit Judges.
Gerald Von Tobel, a Nevada state prisoner, appeals the district court’s denial
of his petition for a writ of habeas corpus. We have jurisdiction pursuant to 28
U.S.C. § 2253 and we affirm.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable Eugene E. Siler, United States Circuit Judge for the
U.S. Court of Appeals for the Sixth Circuit, sitting by designation.

(2 of 10)
Case: 18-15892, 01/09/2020, ID: 11555982, DktEntry: 44-1, Page 2 of 6

App. 0026
Von Tobel was convicted in 2005 of numerous counts of physical and sexual
abuse of his girlfriend’s three children. After the jury was released, the judge
invited them to “stay and chat” with the attorneys to “discuss the case.” When
asked what factors in the case had an impact on the verdict, Juror No. 200 stated:
“It’s like my neighbor, who is a cop, always says, ‘[h]e wouldn’t be here if he
didn’t do something.’” This comment resulted in a motion for a new trial and an
evidentiary hearing. At the evidentiary hearing, Juror No. 200 testified that his
neighbor’s comment had no effect on him or the verdict. The court denied Von
Tobel’s motion for a new trial and the Nevada Supreme Court affirmed the denial.
Von Tobel then filed a federal habeas petition challenging the propriety of the test
used by the Nevada Supreme Court to evaluate new trial motions resulting from
juror misconduct. The district court denied the petition, but granted a certificate of
appealability.
A district court’s denial of a petition for habeas corpus under 28 U.S.C.
§ 2254 is reviewed de novo. Dows v. Wood, 211 F.3d 480, 484 (9th Cir. 2000). A
federal court cannot grant a petition for habeas corpus to a prisoner in state custody
for a claim that was adjudicated on the merits in state court unless the adjudication
of the claim (1) “resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States” or (2) “resulted in a decision that was based

2

18-15892

(3 of 10)
Case: 18-15892, 01/09/2020, ID: 11555982, DktEntry: 44-1, Page 3 of 6

App. 0027
on an unreasonable determination of the facts in light of the evidence presented in
the State court proceeding.” 28 U.S.C. § 2254(d). A state court decision is
“contrary to” Supreme Court precedent “if the state court arrives at a conclusion
opposite to that reached by [the Supreme] Court on a question of law or if the state
court decides a case differently than [the Supreme] Court has on a set of materially
indistinguishable facts.” Williams v. Taylor, 529 U.S. 362, 412-13 (2000).
After the Nevada Supreme Court’s decision in this case, this court
recognized that a two-part test derived from two Supreme Court cases—Remmer v.
United States, 347 U.S. 227 (1954), and Mattox v. United States, 146 U.S. 140
(1892)—constitutes clearly established federal law for analyzing improper contacts
between jurors and outside parties. See Godoy v. Spearman, 861 F.3d 956, 964
(9th Cir. 2017) (en banc). Von Tobel contends that the test from Meyer v. State, 80
P.3d 447 (Nev. 2003), used by the Nevada Supreme Court to evaluate the contact
between Juror No. 200 and his neighbor is contrary to, or an unreasonable
application of, the Mattox/Remmer test. It is not.
Under Meyer, to obtain a new trial based on juror misconduct the petitioner
must show that (1) the misconduct occurred and (2) the misconduct prejudiced
him. 80 P.3d at 455. If the misconduct is deemed “egregious,” there is a
conclusive presumption of prejudice without the petitioner’s having to show actual
prejudice. Id.

3

18-15892

(4 of 10)
Case: 18-15892, 01/09/2020, ID: 11555982, DktEntry: 44-1, Page 4 of 6

App. 0028
Under Mattox/Remmer, the court first asks “whether the contact was
‘possibly prejudicial.’” Godoy, 861 F.3d at 962 (quoting Mattox, 146 U.S. at 150).
If so, the contact is “presumptively prejudicial” and the court moves to step two
where “the ‘burden rests heavily upon the [state] to establish’ the contact was
actually ‘harmless.’” Id. (quoting Remmer, 347 U.S. at 229).
Von Tobel contends that Meyer is contrary to Mattox/Remmer because it
placed a more onerous burden on him to show prejudice. He argues that under
Mattox/Remmer, he only has to show that the contact was possibly prejudicial—
which is a low threshold—whereas Meyer required him to show that the contact
actually prejudiced him. Von Tobel misreads Meyer. Meyer only requires the
petitioner to show “a reasonable probability or likelihood that the juror misconduct
affected the verdict” in order to prevail on a motion for a new trial. 80 P.3d at 455.
The Nevada Supreme Court had defined a reasonable probability as a “probability
sufficient to undermine confidence in the outcome.” Lobato v. State, 96 P.3d 765,
772 (Nev. 2004) (quoting Strickland v. Washington, 466 U.S. 668, 694 (1984)). In
Godoy, we described the petitioner’s burden under Mattox/Remmer as requiring the
petitioner to present “evidence of an external contact that has a tendency to be
injurious to the defendant” or “evidence of a contact sufficiently improper as to
raise a credible risk of affecting the outcome of the case.” 861 F.3d at 967
(internal quotation marks and citations omitted). “[A] probability sufficient to

4

18-15892

(5 of 10)
Case: 18-15892, 01/09/2020, ID: 11555982, DktEntry: 44-1, Page 5 of 6

App. 0029
undermine confidence in the outcome,” Lobato, 96 P.3d at 772, is similar to
“rais[ing] a credible risk of affecting the outcome,” Godoy, 861 F.3d at 967. And,
most importantly, neither Mattox nor Remmer precisely delineates the petitioner’s
burden. So, even if the burdens under Meyer and Godoy are different, there was no
decision of the Supreme Court that precludes the Nevada Supreme Court from
requiring the petitioner to show a reasonable probability or likelihood that the
contact affected the verdict. See Wright v. Van Patten, 552 U.S. 120, 126 (2008)
(per curiam) (stating that Supreme Court cases must give a “clear answer to the
question presented” to be clearly established federal law).
Von Tobel also contends that the application of the Meyer test here is
contrary to, or an unreasonable application of, Mattox/Remmer because the Nevada
Supreme Court did not presume Juror No. 200’s contact with his neighbor was
prejudicial. He argues that Meyer requires contact to be egregious for a contact to
be presumptively prejudicial, whereas Mattox and Remmer establish a “low
threshold” for a contact presumptively prejudicial. Godoy, 861 F.3d at 967
(quoting Tarango v. McDaniel, 837 F.3d 936, 949 (9th Cir. 2016)). However, the
presumptions of prejudice in Meyer and in Mattox/Remmer are wholly different
concepts. In Meyer, if the petitioner shows that egregious misconduct occurred,
there is a conclusive presumption of prejudice without the petitioner’s having to
show prejudice. Meyer, 80 P.3d at 455. If the misconduct is not egregious, the

5

18-15892

(6 of 10)
Case: 18-15892, 01/09/2020, ID: 11555982, DktEntry: 44-1, Page 6 of 6

App. 0030
presumption of prejudice does not apply, and the petitioner retains the burden to
show a reasonable probability that the misconduct affected the verdict. Id. In
Mattox/Remmer, after the petitioner shows contact that is possibly prejudicial
occurred, there is a rebuttable presumption of prejudice. Godoy, 861 F,3d at 967.
Thus, the two presumptions of prejudice are different conceptually—one obviates
the need to show any prejudice and the other indicates the petitioner has met his
burden of showing possible prejudice. But both Meyer—in those cases deemed
non-egregious—and Mattox/Remmer—in all cases—require the petitioner to show
that the juror misconduct resulted in at least possible prejudice. Whether the state
and federal tests diverge after this point is of no issue here, because Von Tobel
failed to make this threshold showing. And so, denying the petition in this case is
not contrary to, or an unreasonable application of, clearly established federal law.
Von Tobel also requests that we expand the certificate of appealability to
include his claims of actual innocence and ineffective assistance of counsel. See
28 U.S.C. § 2253(c)(1); 9th Cir. R. 22–1(e). We decline to do so because Von
Tobel has not made a “substantial showing of the denial of a constitutional right.”
28 U.S.C. § 2253(c)(2).
For these reasons, the district court correctly denied Von Tobel’s petition for
a writ of habeas corpus under 28 U.S.C. § 2254.
AFFIRMED.

6

18-15892

(7 of 10)
Case: 18-15892, 01/09/2020, ID: 11555982, DktEntry: 44-2, Page 1 of 4

App. 0031
United States Court of Appeals for the Ninth Circuit
Office of the Clerk
95 Seventh Street
San Francisco, CA 94103
Information Regarding Judgment and Post-Judgment Proceedings
Judgment
•
This Court has filed and entered the attached judgment in your case.
Fed. R. App. P. 36. Please note the filed date on the attached
decision because all of the dates described below run from that date,
not from the date you receive this notice.
Mandate (Fed. R. App. P. 41; 9th Cir. R. 41-1 & -2)
•
The mandate will issue 7 days after the expiration of the time for
filing a petition for rehearing or 7 days from the denial of a petition
for rehearing, unless the Court directs otherwise. To file a motion to
stay the mandate, file it electronically via the appellate ECF system
or, if you are a pro se litigant or an attorney with an exemption from
using appellate ECF, file one original motion on paper.
Petition for Panel Rehearing (Fed. R. App. P. 40; 9th Cir. R. 40-1)
Petition for Rehearing En Banc (Fed. R. App. P. 35; 9th Cir. R. 35-1 to -3)
(1)

A.
•

•

B.
•

Purpose (Panel Rehearing):
A party should seek panel rehearing only if one or more of the following
grounds exist:
Ź
A material point of fact or law was overlooked in the decision;
Ź
A change in the law occurred after the case was submitted which
appears to have been overlooked by the panel; or
Ź
An apparent conflict with another decision of the Court was not
addressed in the opinion.
Do not file a petition for panel rehearing merely to reargue the case.
Purpose (Rehearing En Banc)
A party should seek en banc rehearing only if one or more of the following
grounds exist:

Post Judgment Form - Rev. /201

1

(8 of 10)
Case: 18-15892, 01/09/2020, ID: 11555982, DktEntry: 44-2, Page 2 of 4

App. 0032
Ź
Ź
Ź

Consideration by the full Court is necessary to secure or maintain
uniformity of the Court’s decisions; or
The proceeding involves a question of exceptional importance; or
The opinion directly conflicts with an existing opinion by another
court of appeals or the Supreme Court and substantially affects a
rule of national application in which there is an overriding need for
national uniformity.

(2)

Deadlines for Filing:
•
A petition for rehearing may be filed within 14 days after entry of
judgment. Fed. R. App. P. 40(a)(1).
•
If the United States or an agency or officer thereof is a party in a civil case,
the time for filing a petition for rehearing is 45 days after entry of judgment.
Fed. R. App. P. 40(a)(1).
•
If the mandate has issued, the petition for rehearing should be
accompanied by a motion to recall the mandate.
•
See Advisory Note to 9th Cir. R. 40-1 (petitions must be received on the
due date).
•
An order to publish a previously unpublished memorandum disposition
extends the time to file a petition for rehearing to 14 days after the date of
the order of publication or, in all civil cases in which the United States or an
agency or officer thereof is a party, 45 days after the date of the order of
publication. 9th Cir. R. 40-2.

(3)

Statement of Counsel
•
A petition should contain an introduction stating that, in counsel’s
judgment, one or more of the situations described in the “purpose” section
above exist. The points to be raised must be stated clearly.

(4)

Form & Number of Copies (9th Cir. R. 40-1; Fed. R. App. P. 32(c)(2))
•
The petition shall not exceed 15 pages unless it complies with the
alternative length limitations of 4,200 words or 390 lines of text.
•
The petition must be accompanied by a copy of the panel’s decision being
challenged.
•
An answer, when ordered by the Court, shall comply with the same length
limitations as the petition.
•
If a pro se litigant elects to file a form brief pursuant to Circuit Rule 28-1, a
petition for panel rehearing or for rehearing en banc need not comply with
Fed. R. App. P. 32.

Post Judgment Form - Rev. /201

2

(9 of 10)
Case: 18-15892, 01/09/2020, ID: 11555982, DktEntry: 44-2, Page 3 of 4

•

•

The petition or answer must be accompanied by a Certificate of Compliance
App. 0033
found at Form 11, available on our website at www.ca9.uscourts.gov under
Forms.
You may file a petition electronically via the appellate ECF system. No paper copies are
required unless the Court orders otherwise. If you are a pro se litigant or an attorney
exempted from using the appellate ECF system, file one original petition on paper. No
additional paper copies are required unless the Court orders otherwise.

Bill of Costs (Fed. R. App. P. 39, 9th Cir. R. 39-1)
•
The Bill of Costs must be filed within 14 days after entry of judgment.
•
See Form 10 for additional information, available on our website at
www.ca9.uscourts.gov under Forms.
Attorneys Fees
•
Ninth Circuit Rule 39-1 describes the content and due dates for attorneys fees
applications.
•
All relevant forms are available on our website at www.ca9.uscourts.gov under Forms
or by telephoning (415) 355-7806.
Petition for a Writ of Certiorari
•
Please refer to the Rules of the United States Supreme Court at
www.supremecourt.gov
Counsel Listing in Published Opinions
•
Please check counsel listing on the attached decision.
•
If there are any errors in a published opinion, please send a letter in writing
within 10 days to:
Ź
Thomson Reuters; 610 Opperman Drive; PO Box 64526; Eagan, MN 55123
(Attn: Jean Green, Senior Publications Coordinator);
Ź
and electronically file a copy of the letter via the appellate ECF system by using
“File Correspondence to Court,” or if you are an attorney exempted from using
the appellate ECF system, mail the Court one copy of the letter.

Post Judgment Form - Rev. /201

3

(10 of 10)
Case: 18-15892, 01/09/2020, ID: 11555982, DktEntry: 44-2, Page 4 of 4

App. 0034
81,7('67$7(6&28572)$33($/6
)257+(1,17+&,5&8,7
)RUP%LOORI&RVWV
Instructions for this form: http://www.ca9.uscourts.gov/forms/form10instructions.pdf

WK&LU&DVH1XPEHU V
&DVH1DPH
7KH&OHUNLVUHTXHVWHGWRDZDUGFRVWVWR party name(s) 

,VZHDUXQGHUSHQDOW\RISHUMXU\WKDWWKHFRSLHVIRUZKLFKFRVWVDUHUHTXHVWHGZHUH
DFWXDOO\DQGQHFHVVDULO\SURGXFHGDQGWKDWWKHUHTXHVWHGFRVWVZHUHDFWXDOO\
H[SHQGHG
6LJQDWXUH

'DWH

(use “V>W\SHGQDPH@” to sign electronically-filed documents)
5(48(67('
(each column must be completed)

&2677$;$%/(
'2&80(176)((3$,'
([FHUSWVRI5HFRUG

1RRI
&RSLHV

3DJHVSHU
&RVWSHU3DJH
&RS\

727$/
&267





Brief; 1st, 2nd , and/or 3rd Brief on Cross-Appeal;
Intervenor Brief)





5HSO\%ULHI&URVV$SSHDO5HSO\%ULHI





6XSSOHPHQWDO%ULHI V





3ULQFLSDO%ULHI V (Opening Brief; Answering

3HWLWLRQIRU5HYLHZ'RFNHW)HH3HWLWLRQIRU:ULWRI0DQGDPXV'RFNHW)HH



727$/ 
*Example: Calculate 4 copies of 3 volumes of excerpts of record that total 500 pages [Vol. 1 (10 pgs.) +
Vol. 2 (250 pgs.) + Vol. 3 (240 pgs.)] as:
No. of Copies: 4; Pages per Copy: 500; Cost per Page: $.10 (or actual cost IF less than $.10);
TOTAL: 4 x 500 x $.10 = $200.
Feedback or questions about this form? Email us at forms@ca9.uscourts.gov

)RUP

Rev. 12/01/2018

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 1 of 30

App. 0035

1
2
3
4

UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA

5
6
7

GERALD VON TOBEL,
8
Petitioner,
9

3:10-cv-00073-LRH-VPC

vs.
ORDER

10

JAMES BENEDETTI, et al.,

11

Respondents.

12
13
14
15

This habeas matter under 28 U.S.C. § 2254 comes before the Court for a decision on the merits
of the remaining grounds.
Background

16

Petitioner Gerald Von Tobel challenges his 2005 Nevada state conviction, pursuant to a jury

17

verdict, of eleven counts of lewdness with a child under the age of fourteen, four counts of sexual

18

assault with a minor under the age of fourteen, one count of open or gross lewdness, two counts of

19

attempted lewdness with a child under the age of fourteen, one count of lewdness with a child under

20

the age of fourteen with the use of a deadly weapon, three counts of child abuse and neglect, and three

21

counts of second-degree kidnapping. He challenged the judgment of conviction, as amended, on direct

22

appeal and two rounds of state post-conviction review.

23

Standard of Review

24

The Antiterrorism and Effective Death Penalty Act (AEDPA) imposes a “highly deferential”

25

standard for review of state-court rulings on the merits that is “difficult to meet” and “which demands

26

that state-court decisions be given the benefit of the doubt.” Cullen v. Pinholster, 563 U.S. 170 (2011).

27

Under this highly deferential standard of review, a federal court may not grant habeas relief merely

28

because it might conclude that the state court decision was incorrect. 563 U.S. at 202. Instead, under

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 2 of 30

App. 0036

1

28 U.S.C. § 2254(d), the court may grant relief only if the state court decision: (1) was either contrary

2

to or involved an unreasonable application of clearly established law as determined by the United States

3

Supreme Court; or (2) was based on an unreasonable determination of the facts in light of the evidence

4

presented at the state court proceeding. 563 U.S. at 181-88.

5

A state court decision is “contrary to” law clearly established by the Supreme Court only if it

6

applies a rule that contradicts the governing law set forth in Supreme Court case law or if the decision

7

confronts a set of facts that are materially indistinguishable from a Supreme Court decision and

8

nevertheless arrives at a different result. E.g., Mitchell v. Esparza, 540 U.S. 12, 15-16 (2003). A state

9

court decision is not contrary to established federal law merely because it does not cite the Supreme

10

Court’s opinions. Id. Indeed, the Supreme Court has held that a state court need not even be aware of

11

its precedents, so long as neither the reasoning nor the result of its decision contradicts them. Id.

12

Moreover, “[a] federal court may not overrule a state court for simply holding a view different from its

13

own, when the precedent from [the Supreme] Court is, at best, ambiguous.” 540 U.S. at 16. For, at

14

bottom, a decision that does not conflict with the reasoning or holdings of Supreme Court precedent is

15

not contrary to clearly established federal law.

16

A state court decision constitutes an “unreasonable application” of clearly established federal

17

law only if it is demonstrated that the state court’s application of Supreme Court precedent to the facts

18

of the case was not only incorrect but “objectively unreasonable.” E.g., Mitchell, 540 U.S. at 18; Davis

19

v. Woodford, 384 F.3d 628, 638 (9th Cir. 2004).

20

To the extent that the state court’s factual findings are challenged, the “unreasonable

21

determination of fact” clause of Section 2254(d)(2) controls on federal habeas review. E.g., Lambert

22

v. Blodgett, 393 F.3d 943, 972 (9th Cir. 2004). This clause requires that the federal courts “must be

23

particularly deferential” to state court factual determinations. Id. The governing standard is not

24

satisfied by a showing merely that the state court finding was “clearly erroneous.” 393 F.3d at 973.

25

Rather, AEDPA requires substantially more deference:

26
27

. . . . [I]n concluding that a state-court finding is unsupported by
substantial evidence in the state-court record, it is not enough that we
would reverse in similar circumstances if this were an appeal from a
district court decision. Rather, we must be convinced that an appellate

28
-2-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 3 of 30

App. 0037

1

panel, applying the normal standards of appellate review, could not
reasonably conclude that the finding is supported by the record.

2
3
4
5
6
7

Taylor v. Maddox, 366 F.3d 992, 1000 (9th Cir. 2004); see also Lambert, 393 F.3d at 972.
Under 28 U.S.C. § 2254(e)(1), state court factual findings are presumed to be correct unless
rebutted by clear and convincing evidence.
The petitioner bears the burden of proving by a preponderance of the evidence that he is entitled
to habeas relief. Pinholster, 563 U.S. at 569.

8
9

Discussion
Ground 1: Juror Misconduct

10

In Ground 1, Von Tobel alleges that he was denied rights to confrontation and to trial by an

11

impartial jury in violation of the Sixth and Fourteenth Amendments when a juror engaged in a

12

conversation with a neighbor who was a police officer, who opined that a defendant “wouldn’t be here

13

[at trial] if he didn’t do something,” allegedly negating petitioner’s right to the presumption of

14

innocence.1

15
16

The jury began its deliberations from prior to 4:00 p.m. to approximately 6:00 p.m. on Thursday,
March 17, 2005, before returning at 10:00 a.m. the next day.2

17

During the day on that Friday, the jury sent a note asking: “If we don’t agree on all counts can

18

we convict only on what we agree.” The court responded that the answer to the question was contained

19

within the instructions. Prior to 4:45 p.m., the jury sent another note reflecting that they could not agree

20

on nineteen specified counts, that they did agree on seven other specified counts, and that there were

21

two jurors for whom no further amount of deliberation would change their vote. The jurors asked how

22

they were to proceed and, if the answer was in the instructions, on what page. The court again referred

23

generally to the instructions and discharged the jury until Monday morning to resume deliberations.3

24

////

25
26

1

ECF No. 23, at 13-16.

27

2

See ECF No. 25-11, at 2 & 109-11; Exhibit 31, at 1 & 106-08.

28

3

ECF No. 25-13, at 6-9; Exhibit 33. ECF No. 25-14; Exhibit 34.

-3-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 4 of 30

App. 0038

1

During the day on Monday, March 21, 2005, the jury sent a longer note reflecting that the jurors

2

were “going nowhere,” that they agreed on sixteen unspecified counts, that they could not agree on the

3

others, and that the jurors did not “feel we can come together unanimously on all counts.” The note

4

stated that the jurors understood the rules on a unanimous verdict, but they sought an explanation as to

5

a “hung jury” if that was an option. The court requested that the jury continue to deliberate, stating that

6

if they had not reached a verdict by the end of the day, they would be called back at 9:00 a.m. the next

7

morning for continued deliberation.4

8
9

At approximately 9:00 a.m. on the Tuesday morning, the jury returned a verdict, finding Von
Tobel guilty on twenty-five counts and not guilty on one count.5

10
11

Before releasing the jury, the trial judge encouraged the jurors to voluntarily “stay and chat” with
counsel as to “why or how you reached your decision.”6

12
13

Defense counsel’s declaration submitted with a motion for new trial filed the next day asserted,
inter alia, the following regarding what transpired thereafter:

14

That after the reading of the verdict your declarant remained in
the courtroom to speak with the jurors, along with co-counsel, Amy
Coffee, and Deputy District Attorney Mary Kay Holthus. That during
this informal discussion with the jurors, Juror No. 200, Jimmie Petersen,
was asked what factors in the case had an impact on his verdict.
Petersen then remarked, “It’s like my neighbor, who is a cop, always
says, ‘He wouldn’t be here if he didn’t do something.’”

15
16
17
18

(ECF No. 25-18, at 3; Exhibit 38, at 2, ¶ 7.)

19

The state district court held an evidentiary hearing on April 12, 2005. Jimmie Petersen testified,

20

inter alia, that his neighbor “Joe” previously had told him that he was “an undercover cop” with the

21

Boulder City, Nevada police department.7 During examination by the court, Petersen testified to the

22

following exchange with the neighbor occurring during the trial:

23
24

4

ECF No. 25-13, at 10-11; Exhibit 33.

25

5

ECF Nos. 25-15 & 25-17; Exhibits 35 & 37.

6

ECF No. 25-15, at 6-8; Exhibit 35, at 5-7.

7

ECF No. 26-5, at 19-20; Exhibit 45, at 18-19. No other evidence was presented that “Joe” in fact was a police

26
27
28

officer.

-4-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 5 of 30

App. 0039

1
2

Q
Was there any time during the voir dire, or the course of this case
when in fact you had a conversation with this next door neighbor of
yours wherein you discussed this case?

3

A

4

Q
What, if any conversation did you have about this case with your
next door neighbor?

I did not discuss the case with him.

5
6

A
I went out to the community mailbox and I happened to meet him
out there one day, and –

7

Q

8

A
During the trial; and I said: You know, I don’t know how you put
up with this stuff that you have to do with.

During the trial?

9
Q

Okay.

10
11
12
13
14
15
16
17

A
I said – he said: Oh. It’s just want [sic] you have to do. And I
said – I just mentioned that I was on jury duty and I was having a tough
time. I says: I’ve got stuff that’s going on here that just makes me sick.
Matter of fact, I have a hard time sleepin’ with it as a result of it.
And essentially that was pretty much the conversation. I did not
disclose anything at all about the case, what it was, what it was about.
He made the comment – I don’t know whether it was then or at a later
time that he says: Well, a lot of cases never get that far. They get plead
out before it ever happens; and he says, for example, he says: We have
one in Boulder City that there’s – it was a kid got killed in gang
something or other, I don’t recall the whole – all of the things about it;
and he says: There’s already people that have plead out serving time
while the others are waiting to go to Court. And that was pretty much
the conversation.

18
19

Q
Did he make a comment to you about if someone appears in a
court of law that they must have done something?

20

A

21

Q
You don’t deny in fact though that you made a statement sort of
like that when we were here after the return of the verdict?

Not really.

22
A

No, I don’t deny that.

23
24

(ECF No. 26-5, at 16-18; Exhibit 45, at 15-17.)

25

Petersen further testified in response to the court’s examination that: (1) the conversation did

26

not affect in any way his understanding of the presumption of innocence; (2) the conversation did not

27

affect his ability to keep an open mind about the case as he listened to the evidence; (3) he did not

28

decide after talking to the officer that Von Tobel must have done something or else he would not be in
-5-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 6 of 30

App. 0040

1

court; (4) the officer was “just a neighbor” with whom he did not otherwise socialize; (5) he did not

2

withhold any information during voir dire regarding his understanding of the presumption of innocence;

3

(6) he did not make up his mind as to guilt or innocence prior to deliberations; and (7) he actually

4

changed his mind several times during deliberations.8

5
6

Toward the end of an extensive examination of the juror by defense counsel, the following
exchange occurred:

7
8

Q
Okay. Sir, at that point when you were speaking with the police
officer, the police officer talked to you about a case that he was involved
in in Boulder City, correct?

9

A

Yes.

10

Q

He told you that he had a case where a kid had been killed?

11

A

Yes.

12

Q
Okay, and it was at that point that the police officer offered his
opinion that if someone is there – meaning if someone is on trial – that
they are there for a reason?

13
14

A
I don’t know if it was his opinion. I’d say it was more of
statement.

15
Q

Okay, and he told you that statement at that point?

A

I believe so, yes.

Q

During the trial?

A

I believe it –

16
17
18
19
20

(ECF No. 26-5, at 29-30; Exhibit 45, at 28-29.)

21

Petersen further testified in response to counsel’s examination that: (1) he respected the work

22

that his neighbor did as a police officer; (2) he “took [the statement] to mean that was his opinion;” (3)

23

the statement meant “[n]ot a thing” to him; (4) the statement did not affect him one way or the other in

24

the case; (5) it did not influence his thought process, how he viewed the evidence, or his verdict.9

25

////

26
27

8

ECF No. 26-5, at 16 & 17-18; Exhibit 45, at 15 & 16-17.

28

9

ECF No. 26-5, at 30-31; Exhibit 45, at 29-30.

-6-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 7 of 30

App. 0041

1

Defense counsel further elicited the following testimony from Petersen about his post-verdict

2

comment, after establishing that multiple trial participants including counsel and the judge were present:

3
4

Q
. . . and one of the comments that you made during that
discussion right after the verdict was that it reminded you of what [your]
neighbor had said?

5

A

6

Q
You said that the verdict reminded you that the police officer had
felt if someone is on trial, they’re there for a reason?

Yes, I did.

7
A

I believe so.

Q

And that was immediately after the verdict?

A

I believe so.

8
9
10
11

(ECF No. 26-5, at 31-32; Exhibit 45, at 30-31.)10

12

At the conclusion of the evidentiary hearing, the trial judge initially noted that she was present

13

when the juror made the comment following the verdict to the effect that the officer had said “[i]f

14

they’re here, they’re here for a reason.” She stated that “I heard, I saw, and I was present for all of that

15

which gives rise to the matter before me now.”11

16

The judge noted that the juror perhaps had violated her standard admonition to jurors to not

17

discuss the case when he said to the officer that he did not know how they did what they did. She

18

further concluded as follows:

19

I find, however, that the true violation of this order occurred
when he either in response, or in the typical neighborhood banter, said:
I’m involved in a case that because of what I’m hearing, it’s making me
sick. That’s discussing a subject that is related to or connected to the
trial. That’s all that he discussed.

20
21
22

Then my analysis needs to be whether or not as a result of that
impermissible discussion, was he influenced by the discussion? Was he
subsequently unable to maintain the oath that he had taken to keep an
open mind, to be fair to both sides in this case? I found from his

23
24
25
26
27
28

10

Von Tobel asserts that Petersen “could not sleep” the night before the hearing, to suggest that he was “clearly
concerned” about testifying. (ECF No. 69, at 8 & 16 n.1.) The hearing was held three days before the April 15, 2005,
tax deadline; and Petersen worked as a tax preparer for H&R Block. He stated that he did not sleep the night before, not
that he could not. (ECF No. 24-20, at 93; Exhibit 19, at 92. ECF No. 26-5, at 7, 26 & 28; Exhibit 45, at 6, 25 & 27.)
11

ECF No. 26-5, at 40-41; Exhibit 45, at 39-40.

-7-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 8 of 30

App. 0042

1
2

testimony that he never swayed in his belief that he was obligated to
listen to the facts and the evidence in this case, and render a verdict only
after he listened to all of the witnesses, saw all of the evidence, and
began deliberations with his fellow jurors.

3
4
5
6
7
8
9
10
11
12
13
14
15
16

He never wavered with respect to the presumption of innocence.
He did not have a preconceived idea about the guilt or innocence of this
case. His discussion with the neighbor did not affect his belief or
reliance upon the presumption of innocence, and although I stopped
short, or tried to stop short in my questioning as to whether or not he had
made up his mind about the guilt or innocence of this defendant before
he began deliberations, he responded that he had not, and then he gave
me more information than I think we were entitled to when he said:
Well, actually I changed my mind several times during the deliberative
process.
So while I find that this juror went – had a conversation with a
neighbor that discussed his apparent physical reaction to a case that he
was a juror on, I find no evidence that the nature of the case was
discussed; that the conversation itself had any influence on the
determination of guilt or innocence in this case; that the respect for the
presumption of innocence remained un-violated – inviolate I believe is
the correct word for that – until such time as this juror deliberated with
the other jurors, weighed and balanced presumably the evidence, applied
the law as given in the instructions, and that there is no error that would
require the granting of the motion for a new trial; and that will be this
Court’s order.
(ECF No. 26-5, at 43-44; Exhibit 45, at 42-43.)
The Supreme Court of Nevada held as follows in its February 29, 2008, order of affirmance:

17

Juror misconduct

18

Von Tobel argues that the district court should have granted his
motion for a mistrial on the ground that a juror engaged in a conversation
concerning the case with his neighbor, an off-duty police officer. This
court generally reviews a district court's denial of a motion for a mistrial
because of juror misconduct for an abuse of discretion.[FN1] When the
allegation of juror misconduct involves exposure to extrinsic evidence
or influence in violation of the Confrontation Clause, we review de novo
the district court's determination regarding the prejudicial effect of the
misconduct.[FN2] We will not disturb the district court's factual findings
absent clear error.[FN3]

19
20
21
22
23
24

[FN1] Lane v. State, 110 Nev. 1156, 1163, 881
P.2d 1358, 1363-64 (1994), vacated on other grounds on
rehearing, 114 Nev. 299, 956 P.2d 88 (1998).

25
26
27

[FN2] Meyer v. State, 119 Nev. 554, 561-62, 80
P.3d 447, 453 (2003).
[FN3] Id.

28
-8-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 9 of 30

App. 0043

1
2
3

Von Tobel argues that the neighbor's comments to the juror
constituted extrinsic evidence and thus implicated the Confrontation
Clause, which would invoke this court's de novo review. In response, the
State asserts that the misconduct does not implicate the Confrontation
Clause because the juror did not learn anything new from the neighbor's
statements and the conversation did not concern the nature of the case.

4
5
6
7
8
9
10
11
12
13

The juror was not exposed to any outside information specific to
this case; however, he was exposed to the neighbor's outside opinion that
anyone on trial as a criminal defendant must have done something
wrong. If another juror had expressed this opinion during deliberations,
then it would not have been extrinsic evidence because it would have
been an exchange of ideas and opinions among the jury. Because the
opinion came from a source outside of the trial or the jury, it was
extrinsic; therefore, we apply a de novo standard of review.
A defendant who moves for a new trial based on allegations of
juror misconduct bears the burden of proof to show that misconduct
occurred and that the misconduct prejudiced the defendant.[FN4] To
show prejudice, the 'defendant must prove that "there is a reasonable
probability or likelihood that the juror misconduct affected the
verdict."[FN5] "[I]n the most egregious cases of extraneous influence on
a juror, such as jury tampering," this court applies "a conclusive
presumption of prejudice."[FN6] However, this court has expressly
rejected the proposition that any extrinsic influence requires an
automatic presumption of prejudice.[FN7]

14
[FN4] Id. at 563-64, 80 P.3d at 455.
15
[FN5] Id. at 564, 80 P.3d at 455.
16
[FN6] Id.
17
[FN7] Id.
18
19
20
21

We first determine that it was misconduct for the juror to discuss
with his neighbor the fact that he was on a jury for a criminal trial and
that the facts of the case were sickening. However, because the
conversation with his neighbor, who happened to be a police officer, did
not concern the particular facts of this case, the misconduct was not
egregious. Therefore, we conclude that a presumption of prejudice does
not apply.

22
23
24
25
26
27
28

When prejudice is not presumed, a defendant must prove
prejudice, with admissible evidence. Reviewing the trial as a whole, a
defendant must show that there was a reasonable probability that the
juror misconduct affected the verdict.[FN8] To determine if the
misconduct by accessing extrinsic materials affected the verdict, courts
may consider how the extrinsic material was introduced to the jury, when
it was introduced, how long the jury discussed it, whether the
information was vague or specific, whether it was cumulative of other
evidence, whether it was material, and its weight.[FN9] A district court's
factual investigation is limited to determining which jurors were exposed
and the scope of exposure. Then the court must apply an objective test
as to whether such exposure would affect a reasonable juror and may not
-9-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 10 of 30

App. 0044

1

inquire into the actual effects the extrinsic evidence had on deliberations.
[FN10]

2
[FN8] Id. at 565, 80 P.3d at 456.
3
[FN9] Id. at 566, 80 P.3d at 456.
4
[FN10] Id. Von Tobel also argues that the district
court improperly considered how the conversation
affected the juror subjectively. Because we review the
district court’s determination of prejudice de novo, and
we apply the appropriate objective standard, we do not
address this contention.

5
6
7
8
9
10
11
12
13
14
15

Von Tobel has failed to show a reasonable probability that the
misconduct affected the verdict. Although the juror's neighbor expressed
an opinion regarding the justice system and the juror admitted that he
respected his neighbor and the work he did, the conversation did not
involve any details of this case. And, while the conversation took place
during the trial, the district court instructed the jury regarding the law
after the conversation occurred. The court instructed the jury on the
presumption of innocence and the jury is presumed to have adhered to
that instruction.[FN11] Although a reasonable juror may have been
affected by hearing an opinion regarding the presumption of innocence
from a neighbor he or she respected, a district court's instruction could
cure any possible prejudice. Therefore, we conclude that Von Tobel has
failed to show that exposure to his or her neighbor's opinion would have
affected a reasonable juror in such a way as to demonstrate a reasonable
probability that the exposure affected the jury’s verdict.

16

[FN11] Lisle v. State, 113 Nev. 540, 558, 937
P.2d 473, 484 (1997).

17
18

(ECF No. 26-15, at 2-6; Exhibit 55, at 1-5.)

19

On federal habeas review, Von Tobel contends that the state supreme court’s application of the

20

analysis outlined in its earlier Meyer decision to this case was contrary to clearly established federal law.

21

Petitioner relies upon, inter alia, holdings by the Ninth Circuit in to an extent related cases as to what

22

constitutes clearly established federal law as determined by the United States Supreme Court.

23
24
25
26
27
28

In its recent decision in Godoy v. Spearman, 861 F.3d 956 (9th Cir. 2017), the Court of Appeals,
sitting en banc, stated:
The state appellate court's decision was contrary to the clearly
established Supreme Court law that the parties agree governs this case.
The Court emphasized long ago that due process does not tolerate “any
ground of suspicion that the administration of justice has been interfered
with” by external influence. Mattox v. United States, 146 U.S. 140, 149,
13 S.Ct. 50, 36 L.Ed. 917 (1892), called into doubt on other grounds by
Warger v. Shauers, ––– U.S. ––––, 135 S.Ct. 521, 526–27, 190 L.Ed.2d
-10-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 11 of 30

App. 0045

1

422 (2014). Thus, when faced with allegations of improper contact
between a juror and an outside party, courts apply a settled two-step
framework. At step one, the court asks whether the contact was
“possibly prejudicial,” meaning it had a “tendency” to be “injurious to
the defendant.” Id. at 150, 13 S.Ct. 50. If so, the contact is “deemed
presumptively prejudicial” and the court proceeds to step two, where the
“burden rests heavily upon the [state] to establish” the contact was, in
fact, “harmless.” Remmer v. United States, 347 U.S. 227, 229, 74 S.Ct.
450, 98 L.Ed. 654 (1954). If the state does not show harmlessness, the
court must grant the defendant a new trial. See Remmer v. United States,
350 U.S. 377, 382, 76 S.Ct. 425, 100 L.Ed. 435 (1956) (Remmer II).
When the presumption arises but the prejudicial effect of the contact is
unclear from the existing record, the trial court must hold a “hearing” to
“determine the circumstances [of the contact], the impact thereof upon
the juror, and whether or not it was prejudicial.” Remmer, 347 U.S. at
229–30, 74 S.Ct. 450.

2
3
4
5
6
7
8
9
10

861 F.3d at 956.

11

In Godoy, the Ninth Circuit necessarily was addressing clearly established law as of the time of

12

the state appellate court’s March 18, 2009, decision in that case,12 based upon the 1892 Mattox decision

13

and the mid-1950's Remmer decisions from the United States Supreme Court. Godoy thus would appear

14

to speak to the state of Supreme Court law also only a year earlier at the time of the February 29, 2008,

15

decision on direct appeal in Von Tobel’s case. Such circuit precedent can establish within the circuit

16

what in turn was clearly established federal law as determined by the Supreme Court at a relevant time.

17

See, e.g., Marshall v. Rodgers, 569 U.S. 58, 64 (2013).

18

Petitioner contends that the state supreme court’s application of the framework outlined in its

19

previous Meyer decision was contrary to the clearly established federal law outlined in Godoy because

20

the state court did not apply the correct standard for assigning the burden and failed to place the burden

21

on the State to overcome a presumption of prejudice arising from the juror’s misconduct.13

22

While the issue is a debatable one, the Court is not persuaded that petitioner has shown that

23

Ninth Circuit precedent establishes that the rule applied by the Supreme Court of Nevada, in this

24

particular context, was contrary to clearly established federal law as determined by the United States

25

Supreme Court at the time of the state supreme court’s February 29, 2008, decision on the merits.

26
12

27
28

See People v. Godoy, 2009 WL 692698 (Cal. Ct. App., March 18, 2009).

13

See, e.g., ECF No. 70-1 (notice of supplemental authorities). The Court is granting petitioner leave by this
order to file his notice of supplemental authorities and argument to his reply pursuant to Local Rule LR 7-2(g). Given
that the reply is the last pleading filed, a further filing by respondents is not necessarily required in this situation.

-11-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 12 of 30

App. 0046

1
2
3
4
5
6
7
8

The same Godoy en banc opinion emphasizes later in the opinion that not every external contact,
even by law enforcement, leads to a presumption of prejudice under Mattox and Remmer:
We recognize the practical impossibility of shielding jurors from
all contact with the outside world, and also that not all such contacts risk
influencing the verdict. See Tarango, 837 F.3d at 947 (citing Smith v.
Phillips, 455 U.S. 209, 217, 102 S.Ct. 940, 71 L.Ed.2d 78 (1982)).
Thus, the defendant's burden at step one cannot be met by “[t]hreadbare
or speculative allegations” of misconduct. Id. Nor do “allegations
involving prosaic kinds of jury misconduct,” id. (internal quotation
marks omitted), such as “chance contacts between witnesses and jury
members—while passing in the hall or crowded together in an elevator,”
id. at 951, trigger the presumption. The defendant must present
evidence of a contact sufficiently improper as to raise a credible risk
of affecting the outcome of the case.

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

Among the considerations relevant to this determination are the
identity of the outside party and the nature of the contact. We have held,
for example, that “undue contact” between jurors and certain
government officers—like bailiffs or law enforcement agents—will
“almost categorically” trigger the presumption. Id. at 947. This may be
especially true when the officer is “deeply entangled in [the] case.”
Id. at 949 (applying the presumption where police officers who were
victims, investigators and witnesses in the case tailed a holdout juror on
his drive to the courthouse); see also Parker v. Gladden, 385 U.S. 363,
365, 87 S.Ct. 468, 17 L.Ed.2d 420 (1966) (per curiam) (“[T]he official
character of the bailiff—as an officer of the court as well as the
State—beyond question carries great weight with a [sequestered] jury
which he had been shepherding for eight days and nights.”); Remmer,
347 U.S. at 229, 74 S.Ct. 450 (“The sending of an F.B.I. agent in the
midst of a trial to investigate a juror ... is bound to impress the juror and
is very apt to do so unduly. A juror must feel free to exercise his
functions without the F.B.I.... looking over his shoulder.”); Mattox, 146
U.S. at 151, 13 S.Ct. 50 (“Nor can it be legitimately contended that the
misconduct of the bailiff could have been otherwise than prejudicial.
Information that this was the third person Clyde Mattox had killed,
coming from the officer in charge, precludes any other conclusion.”).
Similarly—regardless of the outside party's identity—communications
“about the matter pending before the jury,” “if not made in pursuance of
[the] rules ... and the instructions ... of the court,” greatly increase the
risk of prejudice. Remmer, 347 U.S. at 229, 74 S.Ct. 450; see also
Caliendo, 365 F.3d at 697–98 (“Other factors may include the length
... of the contact, ... evidence of actual impact on the juror, and the
possibility of eliminating prejudice through a limiting instruction.”).
We bear in mind that even such highly troubling contacts do
not necessarily raise a presumption of prejudice. At step one, the
court considers the full context of the contact to determine whether a
credible risk of prejudice exists. Contact with a government officer, for
example, will trigger the presumption only if the defendant shows the
contact was somehow improper. Similarly, even contact about the case
may be insufficient to trigger the presumption if the surrounding
circumstances show the contact was innocuous.

28
-12-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 13 of 30

App. 0047

1
2
3
4
5

Importantly, however, the defendant's burden at step one to show
a possibility of prejudice is not onerous. The defendant need only
demonstrate a credible risk, and the presumption may arise even when
“[w]e do not know from th[e] record ... what actually transpired, or
whether the incidents that may have occurred were harmful or harmless.”
Remmer, 347 U.S. at 229, 74 S.Ct. 450.
861 F.3d at 967-68 (bold emphasis added; italic emphasis in original).

6

The en banc court in Godoy cited with apparent approval the prior related discussion in

7

Tarango v. McDaniel, 837 F.3d 936, 947 (9th Cir. 2016), cert. denied sub nom. Filson v. Tarango, 137

8

S.Ct. 1816 (2017). Godoy reviewed a California state appellate decision; Tarango arose instead out of

9

Nevada. Significantly, the panel opinion in Tarango can be read as suggesting that the analysis applied

10

in Meyer is compatible with clearly established federal law as determined by the United States Supreme

11

Court in the context presented here.

12

In Tarango, the Ninth Circuit did not conclude that the state supreme court’s decision was

13

contrary to clearly established federal law because the court applied the wrong general legal standard.

14

Rather the Ninth Circuit held that the state court incorrectly concluded that no presumption could arise

15

because a police officer allegedly tailing a known holdout juror in order to intimidate him was not a

16

“communication” about the case. The Ninth Circuit held in particular that:

17
18
19
20

It was . . . error for the Nevada Supreme Court not to conduct a
prejudice analysis merely because Juror No. 2's police tail did not
amount to a “communication . . . about a matter pending before the
jury.”
837 F.3d at 949.

21

When the Tarango court later repeated the conclusion that the state supreme court’s failure to

22

consider whether the juror may have been prejudiced by the police tail “contravened clearly established

23

federal law,” 837 F.3d at 950, the court appended the following footnote:

24
25
26
27
28

Meyer, which the Nevada Supreme Court relied upon,
appears to require the same of Nevada courts. Although Meyer
rejects “the position that any extrinsic influence is automatically
prejudicial,” it does not limit the occasions in which a court must
consider the possibility of prejudice. See 80 P.3d at 455. Rather,
because prejudice is not presumed for less egregious contacts, “the
extrinsic information must be analyzed in the context of the trial as a
whole to determine if there is a reasonable probability that the
-13-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 14 of 30

App. 0048

1

information affected the verdict.” Id. at 455–56. Meyer does not,
however, wholly foreclose a prejudice inquiry in the face of credible
allegations of juror misconduct. Id.

2
3

837 F.3d at 950 n.13 (bold emphasis added).

4

Thereafter, in the passage from Tarango referenced in the previously-quoted portion of the en

5

banc Godoy opinion that discussed more “prosaic” or “innocuous” contacts, the panel again suggested

6

a substantial equivalence between the rule in Meyer and the federal law to be applied:

7

Under our precedent, where an external contact with the jury is
shown, a trial court should determine whether the contact “raises a risk
of influencing the verdict.” Caliendo, 365 F.3d at 697. Under such
circumstances, prejudice is presumed and the government bears the
burden of rebutting the presumption of prejudice. Id. To be sure,
“certain chance contacts between witnesses and jury members—while
passing in the hall or crowded together in an elevator—may be
inevitable.” Id. at 696 (internal quotation marks and citation omitted).
Therefore, if the contact involves a “prosaic” or “more common and less
pernicious extraneous influence” than jury tampering, the court should
determine whether the jury was “substantially swayed” by the
contact.[FN15] United States v. Henley, 238 F.3d 1111, 1115–16 (9th
Cir. 2001). Under this circumstance, the defendant bears the burden
of offering sufficient evidence to trigger a presumption of prejudice.
See Caliendo, 365 F.3d at 696–97 (collecting authorities).

8
9
10
11
12
13
14
15

[FN15] The Nevada Supreme Court has
identified a similar dichotomy in its own construction
of Supreme Court case law prohibiting external
influences on criminal juries. Meyer, 80 P.3d at
455–56.

16
17
18

837 F.3d at 951 & n.15 (bold emphasis added).

19

Von Tobel focuses on the language from Meyer limiting a “conclusive” presumption of

20

prejudice to “the most egregious cases of extraneous influence on a juror, such as juror tampering.”14

21

However, the burden placed upon the defendant in Meyer to trigger a presumption of prejudice – absent

22

a more egregious case such as jury tampering, which did not occur here – specifically is a showing that

23

“there is a reasonable probability or likelihood that the juror misconduct affected the verdict.”15

24

Under established law, a “reasonable probability” is not a stringent standard requiring proof that

25

something is more probable than not. See, e.g., Cooper-Smith v. Palmateer, 397 F.3d 1236, 1243 (9th

26
27

14

119 Nev. at 564, 80 P.3d at 455.

28

15

Id.

-14-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 15 of 30

App. 0049

1

Cir. 2005). Rather, a reasonable probability is merely a probability sufficient to undermine confidence

2

in the outcome. E.g., Johnson v. State, 402 P.3d 1266, 1273 (Nev. 2017).

3

It is subject to question whether the threshold “reasonable probability” standard applied by the

4

Supreme Court of Nevada to generate a presumption in this context necessarily is different in substance

5

from the multiple varying statements of the threshold standard employed by the Ninth Circuit. The

6

Court of Appeals has stated variously, inter alia, that: (1) the “defendant need only demonstrate a

7

credible risk” of influencing the verdict;16 (2) “the defendant bears the burden of offering sufficient

8

evidence to trigger a presumption of prejudice;”17 (3) “the defendant must show that the communication

9

could have influenced the verdict;”18 and (4) a “communication is possibly prejudicial, not de minimis,

10

if it raises a risk of influencing the verdict.”19 Again, it is subject to question whether the state supreme

11

court’s “reasonable probability” expression of the threshold standard necessarily is markedly different

12

from the various expressions of a threshold standard by the Ninth Circuit. Nor does it appear that any

13

such marked difference is established by specific Supreme Court discussion, as opposed to circuit level

14

discussion, and further in the specific context of jury misconduct, that was on the books at the time of

15

the state supreme court’s decision on February 29, 2008.

16

Accordingly, in Von Tobel’s case, the Supreme Court of Nevada, following its prior Meyer

17

decision, applied an analysis under which: (1) in the most egregious cases of extraneous influence on

18

a juror, such as jury tampering,20 a conclusive presumption of prejudice applies; (2) the defendant

19

otherwise must make a threshold showing that there was a reasonable probability that the juror

20

misconduct affected the verdict in order to raise a presumption of prejudice, a threshold showing that

21
22
16

Godoy, 861 F.3d at 968 (emphasis in original). See also id., at 967 (within discussion of Tarango).

17

Tarango, 837 F.3d at 951.

18

Caliendo v. Warden of California Men’s Colony, 365 F.3d 691, 696 (9th Cir. 2004).

26

19

Id., at 697.

27

20

23
24
25

28

Cf. Tarango, 837 F.3d at 531 (distinguishing between prosaic or common events and more “pernicious
extraneous influence” such as jury tampering). Any distinction between a more “pernicious extraneous influence” and
an “egregious extraneous influence” would appear to be a rather fine one.

-15-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 16 of 30

App. 0050

1

has not been established conclusively to markedly differ in substance from the multiple threshold

2

standards articulated in Ninth Circuit precedent; and (3) under either alternative, the state supreme

3

court’s analysis makes no provision for the State to be able to rebut or overcome the presumption of

4

prejudice once established. While Meyer reviewed a range of authorities and possible rules, including

5

Remmer’s rebuttable presumption, the analysis that the Supreme Court of Nevada ultimately adopted

6

after that review did not allow for any opportunity for the State to rebut any presumption of prejudice

7

reached under its analysis, under either alternative.21

8

The rule applied by the Supreme Court of Nevada most definitely is different from the rule that

9

the Ninth Circuit has held constitutes clearly established federal law as determined by the United States

10

Supreme Court. The rule as stated in Meyer does not allow for the State being able to rebut a

11

presumption of prejudice once established. The statement of the rule thus had no occasion to refer to

12

any burden that must or can be carried by the State to overcome a presumption.

13

That difference does not necessarily make the rule applied by the Supreme Court of Nevada

14

“contrary to” that clearly established federal law under AEDPA, however. As the United States

15

Supreme Court explained in Early v. Packer, 537 U.S. 3 (2002):

16

First, the Ninth Circuit observed that the state court “failed to cite
... any federal law, much less the controlling Supreme Court precedents.”
291 F.3d, at 578. If this meant to suggest that such citation was required,
it was in error. A state-court decision is “contrary to” our clearly
established precedents if it “applies a rule that contradicts the governing
law set forth in our cases” or if it “confronts a set of facts that are
materially indistinguishable from a decision of this Court and
nevertheless arrives at a result different from our precedent.” Williams
v. Taylor, 529 U.S. 362, 405-406, 120 S.Ct. 1495, 146 L.Ed.2d 389
(2000). Avoiding these pitfalls does not require citation of our cases –
indeed, it does not even require awareness of our cases, so long as
neither the reasoning nor the result of the state-court decision contradicts
them. The Ninth Circuit's disapproval of the Court of Appeal's failure to
cite this Court's cases is especially puzzling since the state court cited
instead decisions from the California Supreme Court that impose
even greater restrictions for the avoidance of potentially coercive
jury instructions. Compare People v. Gainer, supra, at 852, 139
Cal.Rptr. 861, 566 P.2d, at 1006 (1977) with Allen v. United States,
supra, at 501, 17 S.Ct. 154.

17
18
19
20
21
22
23
24
25
26

537 U.S. at 8 (bold emphasis added; italic emphasis in original).

27
28

21

See 119 Nev. at 564-65; 80 P.3d at 455.

-16-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 17 of 30

App. 0051

1

Here, the state supreme court’s Meyer analysis, on its face, at the very least in part provides even

2

greater protection from extraneous influences on jury verdicts than does the clearly established Supreme

3

Court precedent as outlined in the governing Ninth Circuit cases. If an egregious extraneous influence,

4

such as jury tampering, is involved, what the Ninth Circuit similarly refers to as a more “pernicious

5

extraneous influence,”22 then prejudice is “conclusively” presumed – without any stated opportunity for

6

the State to rebut the presumption as instead would be allowed under clearly established federal law.

7

If the defendant otherwise makes a threshold showing of a reasonable probability that the juror

8

misconduct affected the verdict, where the Ninth Circuit in comparison refers to “a credible risk of

9

influencing the verdict,” then prejudice is presumed, once again without any stated opportunity for the

10

State to rebut the presumption as instead would be allowed under clearly established federal law.

11

Further to the point, there is no discussion in Supreme Court precedent that refers to contact that

12

involves “prosaic kinds of jury misconduct,”23 that delineates what contacts specifically fall within that

13

lesser category, and further that, importantly, defines the threshold standard that a defendant must

14

satisfy to trigger a presumption of prejudice in that context.

15

The Ninth Circuit’s discussion – including in Godoy, in Tarango and in Caliendo – of the more

16

“prosaic” forms of juror misconduct, of the situations that fall within that category, and, again

17

importantly, of the defendant’s threshold burden in that context, instead trace back to discussion in

18

circuit precedent, not Supreme Court precedent. See, e.g., United States v. Dutkel, 192 F.3d 893, 895-

19

96 (9th Cir. 1999)(extended discussion of prior circuit level precedent concerning prosaic contact).24

20

At the time of the state supreme court’s February 29, 2008, decision on the merits, no apposite

21

holding of the United States Supreme Court precluded the Supreme Court of Nevada from concluding

22
22

See note 19, supra.

23

Godoy, 861 F.3d at 967.

23
24
25
26
27
28

24

The Godoy en banc opinion disapproved – during de novo review in 2017 – of Dutke’s conclusion in dicta
that the Remmer presumption applied only in cases of jury tampering. 861 F.3d at 968 n.6. Godoy carried forward,
however, the prosaic/non-prosaic distinction notwithstanding the en banc court’s disagreement with the 1999 panel
opinion as to what specifically fell on one side or the other of that line. The salient point is that one has to delve, deeply,
into circuit precedent rather than Supreme Court precedent to determine the contours of both the prosaic/non-prosaic
distinction itself and the threshold burden that the defendant must bear as to contacts deemed to be “prosaic.” Those
specific contours are established, if at all, only by circuit precedent, not by Supreme Court precedent.

-17-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 18 of 30

App. 0052

1

that the juror’s neighbor’s general comment fell on the “prosaic” – or non-“egregious” in Meyer’s

2

terminology or “innocuous” in Godoy’s alternate terminology – side of the “prosaic/non-prosaic” line

3

referenced in the Ninth Circuit’s precedents.

4

At the time of the state supreme court’s February 29, 2008, decision on the merits, no holding

5

of the United States Supreme Court precluded the Supreme Court of Nevada from requiring a defendant

6

to satisfy a “reasonable probability” materiality standard to generate a presumption of prejudice for such

7

a prosaic, non-egregious or innocuous juror contact.

8

Accordingly, regardless of whether or not the state supreme court’s analysis in Von Tobel’s case

9

on February 29, 2008, is fully consonant with statements nearly a decade later in Ninth Circuit case law

10

regarding the Circuit’s prosaic/non-prosaic distinction, petitioner has not established that – in this

11

context – the state court’s analysis was contrary to clearly established federal law “as determined by the

12

Supreme Court of the United States” under 28 U.S.C. § 2254(d)(1). This conclusion follows

13

particularly given the expressions in the Ninth Circuit’s Tarango decision potentially suggesting a

14

substantial equivalence between the federal law rule and the rule applied in the state supreme court’s

15

Meyer opinion that was followed in Von Tobel’s case.

16

Moreover, given the paucity of Supreme Court precedent specifically addressing the Circuit’s

17

prosaic/non-prosaic distinction and the threshold showing required to generate a presumption, petitioner

18

has not established that the state supreme court’s decision was an objectively unreasonable application

19

of the high court’s precedents. A passing comment by a neighbor, even a purportedly “undercover cop”

20

neighbor, to a juror that defendants would not be in court if they had not done something is not

21

necessarily equivalent to prior circumstances where existing Supreme Court precedent would apply a

22

presumption of prejudice. Such a passing comment is not necessarily equivalent to a bailiff telling the

23

jurors that “This is the third fellow he has killed” and the jurors further being exposed to a newspaper

24

account, inter alia, similarly noting the defendant’s prior prosecutions and essentially expressing

25

surprise that the jury had not returned the expected guilty verdict within an hour.25 Such a passing

26
27

25

Mattox, 146 U.S. at 142-44 (statement of the facts by the Chief Justice). In point of fact, the Mattox Court
would have held only that the trial court erred by not considering affidavits offered to show the extraneous influence on

28

(continued...)
-18-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 19 of 30

App. 0053

1

comment also is not necessarily equivalent to a juror being subjected to an ex parte interview by the

2

Federal Bureau of Investigation during trial investigating an alleged jury tampering incident that, along

3

with the original incident, left the juror “a disturbed and troubled man. . . until after the trial.”26

4

The state supreme court’s determination that a presumption of prejudice did not arise in the first

5

instance in the more innocuous circumstance presented in this case was not an objectively unreasonable

6

application of the prior Supreme Court precedent from 1892 and the mid-1950's.

7

The state supreme court’s further reliance upon, inter alia, the trial court’s instructions on the

8

presumption of innocence in finding that the innocuous circumstance presented did not give rise to a

9

presumption of prejudice further was not an objectively unreasonable application of prior Supreme

10

Court precedent. See, e.g., Godoy, 861 F.3d at 967 (quoting Caliendo, 365 F.3d at 697-98)(“Other

11

factors [in assessing possible prejudice] may include the length . . . of the contact, . . . evidence of actual

12

impact on the juror, and the possibility of eliminating prejudice through a limiting instruction.”).27

13

Petitioner accordingly has not demonstrated that – in the context presented – the state supreme

14

court’s rejection of this claim on the merits was either contrary to or an objectively unreasonable

15

application of clearly established federal law as determined by the United States Supreme Court.

16
17
18
19

25

26

20
21
22
23
24
25
26
27
28

(...continued)

the jury. The Court did not have occasion to remand for further consideration along these lines, however, because it
held that reversal instead for a new trial was required on another, entirely different issue. See 140 U.S. at 151.
Remmer II, 350 U.S. at 380-82.

The neighbor’s comment by the community mailboxes in this case further is not necessarily equivalent to the
circumstances in which the Ninth Circuit previously has applied a presumption of prejudice. Such a comment, even by a
purported police officer neighbor, is not necessarily equivalent to a juror communicating to the rest of the jury what her
“judge friend” had texted her about the ongoing case continually throughout the case (Godoy), a police cruiser tailgating
a known holdout juror on the way to the courthouse allegedly to intimidate him, with that allegedly desired effect being
achieved (Tarango), or an officer who was a key witness for the State having an extended conversation with jurors
(Caliendo).
27

Potential jurors are hardly insulated from opinions by a multitude of casual contacts over the course of their
lives opining, e.g., that defendants would not be charged if they were not guilty, that only guilty people do not testify,
that only guilty people need to be concerned about warrantless police searches because innocent people have nothing to
hide, etc., etc. If exposure to such opinions at the dinner table, at the coffee shop on the way to work, at the proverbial
water cooler, and at the neighborhood mailboxes rendered jurors incapable of following court instructions on, inter alia,
the presumption of innocence, courts would have considerable difficulty in being able to seat a jury and/or reaching a
reliable verdict in criminal cases.

-19-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 20 of 30

App. 0054

1

Ground 1 therefore does not provide a basis for federal habeas relief.28

2

Reasonable jurists could find the issue a debatable one, however, and the Court accordingly will

3
4

grant a certificate of appealability on this ground.
Ground 4: Prosecutorial Misconduct – Minimization of the State’s Burden of Proof

5

In the next remaining ground, Ground 4, petitioner alleges that he was denied rights to due

6

process, to a fair trial, and to a trial before an impartial jury in violation of the Sixth and Fourteenth

7

Amendments because the prosecutor improperly minimized the State’s burden of proof beyond a

8

reasonable doubt during her closing argument.

9

The claim is grounded in the following sequence during the State’s rebuttal argument:

10

MS. GOETTSCH: . . . . Another thing to consider is reasonable
doubt. I encourage you, ladies and gentlemen, to back [sic] into the jury
room and look at what reasonable doubt is. It’s not any doubt. It has to
be reasonable doubt. If you know that he did this, then he’s guilty. It’s
not a mysterious standard.

11
12
13

MR. SILVERSTEIN: Your Honor, I’m going to object. That is
one of the most unbelievable misstatements of the reasonable doubt
standard I’ve ever heard. If you know he’s guilty, he’s guilty? That is
not the standard in this courtroom.

14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

28

This Court is bound by the holding in, inter alia, Godoy as to the constitutional underpinnings of the rule
derived from Mattox and Remmer. The Court notes in passing, however, that both the Supreme Court’s 1892 decision in
Mattox and its mid-1950's decisions in Remmer arose from federal criminal cases. While the decisions reference the
right to trial by jury, the decisions nonetheless had no occasion – particularly at those periods of time – to potentially
distinguish between standards applicable to a federal district court’s exercise of discretion in considering a motion for a
new trial in a federal criminal case from constitutionally-mandated presumptions applicable to the States through the
Fourteenth Amendment. The Mattox Court in particular surveyed precedents from various state supreme courts and a
criminal law treatise rather than necessarily grounding its discussion in constitutional doctrine. See 146 U.S. at 149-51.
Should this issue reach the Supreme Court in a case arising instead from a state court conviction, an initial question
perhaps might be the extent to which Supreme Court precedent clearly establishes that the Constitution compels the
specifics of the burden-shifting analysis derived from Mattox and Remmer upon the States in sundry varying contexts.
In this same vein, the burden-shifting framework applied in Meyer was culled by the Supreme Court of Nevada
not from necessarily constitutionally-compelled presumptions but instead from a comparative review of, inter alia, the
various rules applied by the courts of other states and by federal appellate courts establishing standards applicable in
federal criminal cases. See 119 Nev. at 563-66, 80 P.3d at 455-56.
In the final analysis, the burden-shifting analysis applied by the Supreme Court of Nevada in Meyer perhaps
may be within a permissible range of standards set by a state supreme court in determining the ambit of discretion of a
state trial court when facing a motion for new trial based upon de minimis juror misconduct, such as, for example, a
juror engaging in ill-advised small talk during a case at community mailboxes with a neighbor who, openly, claims to be
an “undercover” police officer.

-20-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 21 of 30

App. 0055

1
2
3

THE COURT: The reasonable doubt – the objection is noted and
sustained. The reasonable doubt instruction is contained within your
jury instructions, and I will remind you that that which is said by any of
our attorneys in closing arguments is not evidence. Ms. Goettsch may
continue.

4
5
6
7
8
9
10
11
12

MS. GOETTSCH: It has – there’s nothing that – there’s nothing
mysterious about the reasonable doubt standard. If you believe these
kids, and you do not have any doubt that’s reasonable, then you must
return a verdict of guilty. The defense attorney talked a lot about the
State wanting to win a case, and that the State wins a case based on
sympathy. The kids are not asking for sympathy. I’m not asking for
sympathy. I’m asking that I win, if you want to say it that way, based on
an abiding conviction of the Defendant’s guilt. That’s what reasonable
doubt is. Read that. It’s not mysterious. It’s not anything higher than
what it reads in that jury instruction.
And lastly and tied to the reasonable doubt standard is: Well, I
believe the kids. I believe what they’re saying is true, but the evidence
is not enough, not accurate, not following the law. There is a jury
instruction that tells you that if you believe the testimony of a victim of
sexual assault or lewdness, i.e., the kids in this case, if you believe them
beyond a reasonable doubt, that is enough to sustain a verdict of guilty.

13
14
15
16
17

So it can’t be a verdict of not guilty based on: Well, I believe the
kids. I think they’re telling the truth, but I wanted something more.
That’s against the law. You need to follow the law, but I wanted
something more. That’s against the law. You need to follow the law,
and if you believe those kids beyond a reasonable doubt, regardless of
whether or not there’s DNA or anything else –
MR. SILVERSTEIN; Your Honor, Your Honor, again I’m going
to object. This – that is a misstatement of the law, Your Honor.

18
19
20
21
22
23
24
25
26

THE COURT: Ms. Goettsch, I’m going to ask you to, again,
contain. I’m going to overrule that objection, however, and ask you to
contain your comments to the standard that is set forth in the
instructions.
MS. GOETTSCH: That is enough to sustain a verdict of guilty,
if you believe these kids beyond a reasonable doubt, and that alone. No
other evidence is required. But fortunately in this case, you have
corroboration. You have more than just the kid’s testimony. [Counsel
in following paragraphs discusses the State’s additional evidence.]
(ECF No. 25-11, at 88-89; Exhibit 31, at 85-86.)
The state supreme court rejected the claim presented to that court on the following basis:
Prosecutorial comment on the reasonable doubt standard and other
alleged misconduct

27
28

Von Tobel argues that the State engaged in prosecutorial
misconduct when it commented on the reasonable doubt standard, and
-21-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 22 of 30

App. 0056

1
2
3
4
5
6

when it asked the jury to "do its job" and convict Von Tobel [discussed
infra regarding federal Ground 5]. We have consistently held that it is
improper for either party to comment on or attempt to characterize
reasonable doubt beyond using the express language in NRS 175.211,
but that any such error is harmless when the court properly instructs the
jury regarding the statutory definition of reasonable doubt.[FN18]
Additionally, we have stated that when an attorney improperly
characterizes reasonable doubt, the district court should issue an
immediate curative instruction to the jury.[FN19]
[FN18] Randolph v. State, 117 Nev. 970, 980-81,
36 P.3d 424, 431 (2001).

7
[FN19] Id. at 981, 36 P.3d at 431-32.
8
9
10
11
12

In this case, the district court not only properly instructed the jury
concerning the reasonable doubt standard, but the district court also
admonished the jury immediately following the improper remarks that
the law concerning reasonable doubt was contained within the jury
instructions and that attorneys' statements are not evidence.
Accordingly, we conclude that any inappropriate representation of the
reasonable doubt standard by the State constituted harmless error
because the jury was correctly instructed on the definition of reasonable
doubt and was immediately admonished to follow that instruction.

13
14

(ECF No. 25-15, at 8-9; Exhibit 55, at 7-8.)

15

On federal habeas review, it is critical to distinguish state and federal criminal law standards for

16

prosecutorial conduct from the federal constitutional standard. On federal habeas review of a state court

17

conviction for constitutional error, the standard of review for a claim of prosecutorial misconduct, is

18

"‘the narrow one of due process, and not the broad exercise of supervisory power'" applied in federal

19

criminal trials. Darden v. Wainwright, 477 U.S. 168, 181 (1986)(quoting Donnelly v. DeChristoforo,

20

416 U.S. 637, 642 (1974)). Nor do alleged violations of state law standards for prosecutorial conduct

21

present cognizable federal claims. Rather, under the narrower due process standard, "[t]he relevant

22

question is whether the [alleged misconduct] ‘so infected the trial with unfairness as to make the

23

resulting conviction a denial of due process.'" Darden, supra (quoting Donnelly, 416 U.S. at 643).

24

Accord Duckett v. Godinez, 67 F.3d 734, 743 (9th Cir. 1995).

25

Petitioner proceeds on the premise that the Supreme Court of Nevada held that the State’s

26

argument constituted a due process violation under Donnelly and then applied a federal harmless error

27

standard. Proceeding from this premise, petitioner maintains that such a due process violation was not

28

harmless under the standard in Brecht v. Abrahamson, 507 U.S. 619, 638 (1993).
-22-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 23 of 30

App. 0057

1

Petitioner’s reading of the state supreme court’s decision is not the most plausible one. On this

2

particular claim, the state supreme court relied upon a single prior state court decision. That decision,

3

and the cases relied upon therein on this issue, clearly exercised the state supreme court’s supervisory

4

authority over state criminal trials.29 None of the cases explicitly applied the federal due process

5

standards in Darden and Donnelly to find the presence of error on such a claim. Nor did the state

6

supreme court reference any such federal due process standard under Darden and Donnelly – in

7

addressing this particular claim – in Von Tobel’s case. Indeed, it arguably would be inconsistent to hold

8

implicitly that prosecutorial misconduct “so infected the trial with unfairness as to make the resulting

9

conviction a denial of due process” while at the same time concluding that the error was harmless under

10

a federal harmless error standard. The most plausible reading of the state supreme court’s order is that

11

the court concluded that the prosecutor’s reasonable-doubt arguments gave rise to state law error that

12

in turn was harmless under state law standards, implicitly rejecting any claim that the argument gave

13

rise to a federal due process violation. Cf. Deck v. Jenkins, 814 F.3d 954, 979 (9th Cir. 2014)(state

14

supreme court’s determination that prosecutor’s improper reasonable doubt argument constituted

15

harmless error constituted implied ruling that no due process violation occurred under Darden).

16

The state supreme court’s implicit ruling that no due process violation occurred was neither

17

contrary to nor an objectively unreasonable application of the clearly established federal law in Darden

18

and Donnelly. Petitioner has not established in the first instance that the state supreme court’s rejection

19

of the claim was contrary to these Supreme Court precedents. In assessing further whether a state

20

court's express or implicit rejection of a claim under a general due process standard such as this was

21

objectively unreasonable:

22

. . . . The meaning of "unreasonable" can depend in part on the
specificity of the relevant legal rule. If a rule is specific, the range of
reasonable judgment may be narrow. Applications of the rule may be
plainly correct or incorrect. Other rules are more general, and their

23
24
25
26
27
28

29

See Randolph v. State, 117 Nev. 970, 979-82, 36 P.3d 424, 430-32 (2001), and cases cited therein. In
Randolph, the Supreme Court of Nevada noted its prior admonitions to prosecutors within the state that they would
“venture into calamitous waters” if they sought to supplement the statutorily-required reasonable doubt instruction in
argument. While the court held that the error was harmless because the proper jury instruction had been given, the court
directed the prosecutor in question to show cause why a sanction of either a monetary fine or referral to the state bar
association for disciplinary proceedings should not be ordered. 117 Nev. at 983 n.16; 36 P.3d at 432 n.16.

-23-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 24 of 30

App. 0058

1

meaning must emerge in application over time. The more general the
rule, the more leeway courts have in reaching outcomes in case by case
determinations.

2
3

Yarborough v. Alvarado, 541 U.S. 652, 664 (2004).

4

Petitioner presents only argument without accompanying supporting citation over and above the

5

general principles drawn from Darden, Donnelly, and the holding regarding reasonable doubt from In

6

re Winship, 397 U.S. 358 (1970). It was not objectively unreasonable for the state supreme court to

7

implicitly conclude that the prosecutor’s remarks regarding reasonable doubt did not so infect Von

8

Tobel’s trial with unfairness as to make his conviction a violation of due process. Petitioner does not

9

contest the fact that the jury instructions properly charged the jury with the correct statement of the

10

reasonable-doubt standard.30 When the defense objected to the first challenged remark, the trial court

11

sustained the objection and referred the jury to the jury instructions for the correct statement of the

12

reasonable-doubt standard. When the defense objected to the second remark, the court admonished the

13

prosecutor to contain her comments to the standard in the instructions. The prosecutor thereafter

14

rephrased and clarified her argument to make the point that a conviction could be based upon the

15

testimony of the victims alone, if believed beyond a reasonable doubt, which is what the jury

16

instructions in fact state.31 Petitioner’s contention that the prosecutor thereby instead “implored the jury

17

to apply the reasonably [sic] doubt standard to only a portion of the evidence, but not the case in its

18

entirety,”32 is, at best, unpersuasive. Petitioner further urges that the only appropriate action by the state

19

trial court would have been to declare a mistrial sua sponte despite the absence of any defense request

20

for a mistrial. However, the state supreme court’s conclusion that no such action was required on the

21

record presented, including the underlying trial evidence, was not an objectively unreasonable

22

application of the general due process standard in Supreme Court precedent.

23

Ground 4 therefore does not provide a basis for federal habeas relief.

24
25
26
27
28

30

See ECF No. 25-16, at 12; Exhibit 36, Instruction No. 5.

31

Jury Instruction No. 21 states: “There is no requirement that the testimony of a victim of a sexual assault
and/or lewdness with a minor be corroborated, and his or her testimony standing alone, if believed beyond a reasonable
doubt, is sufficient to sustain a verdict of guilty.” (ECF No. 25-16, at 28; Exhibit 36.)
32

ECF No. 69, at 21.

-24-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 25 of 30

App. 0059

1

Ground 5: Prosecutorial Misconduct – Asking Jurors to “Do Your Job”

2

In Ground 5, petitioner alleges that he was denied rights to due process, to a fair trial, and to a

3

trial before an impartial jury in violation of the Sixth and Fourteenth Amendments when the prosecutor

4

asked jurors during the State’s closing argument to “do your job” and find petitioner guilty.

5
6

This claim is grounded in the following sequence at the conclusion of the State’s closing
argument:

7
8

MS. HOLTHUS: . . . . And that is it. So, at the conclusion, well,
the kids have done their job, and we’re going to ask you to do your job
and find him guilty of all but the two counts. Thank you.

9
10
11
12
13
14
15
16

MR. SILVERSTEIN: Your Honor, I’m going to object to any
statement that the jury needs to do his [sic] job to convict. The jury’s job
is to be fair in this case, not to convict. And I would ask that be [sic]
stricken.
THE COURT: I would agree, and direct the jury to be mindful
of the instructions that were given as to what their duty is. Thank you,
Ms. Holthus.
(ECF No. 25-122, at 50; Exhibit 31, at 47.)
The state supreme court rejected the claim presented to that court on direct appeal on the
following grounds:

17
18
19
20
21

We next consider Von Tobel's allegation that the prosecutor
committed misconduct by exhorting the jury to "do its job." In Evans v.
State, this court recognized that attorneys may not imply to a jury that it
has a duty to decide the case a certain way.[FN20] However,
prosecutorial misconduct only warrants reversal if the remarks so
influenced the proceeding that it deprived the defendant of a fair
trial.[FN21] The statements should be considered in context, and "a
criminal conviction is not to be lightly overturned on the basis of a
prosecutor's comments standing alone."[FN22]

22
[FN20] 117 Nev. 609, 633-34, 28 P.3d 498, 515
23

(2001).

24

[FN21] Anderson v. State, 121 Nev. 511, 516,
118 P.3d 184, 187 (2005).

25
[FN22] United States v. Young, 470 U.S. 1, 11
26
27
28

(1985).
We conclude that although the prosecutor's exhortation of the
jury to "do [its] job and find [Von Tobel] guilty" was improper, it did not
so infect the trial with unfairness as to deny Von Tobel due process –
-25-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 26 of 30

App. 0060

1

particularly because Von Tobel's objection to the State's argument was
sustained and the jury was immediately admonished that it should refer
to the jury instruction regarding their duty in the case. Therefore,
considering the comment in context, we conclude that the State's
comment does not warrant reversal.

2
3
4

(ECF No. 26-15, at 9-10; Exhibit 55, at 8-9.)

5

The state supreme court’s rejection of this claim was neither contrary to nor an objectively

6

unreasonable application of the clearly established law in Darden and Donnelly discussed previously

7

regarding Ground 4. Given in particular that the trial court sustained the defense objection and directed

8

the jurors to the jury instructions with regard to their duties in the case, it was not objectively

9

unreasonable for the state supreme court to conclude that the improper remark did not so infect the trial

10

with unfairness as to deny Von Tobel due process. Petitioner’s reliance on arguments, inter alia, that

11

prejudice from the remark could not be removed by a simple instruction and that the jury’s ability to

12

exercise independent judgment would be overwhelmed by the prestige and status of the prosecutor is

13

unpersuasive, particularly on deferential review under AEDPA of the state supreme court’s application

14

of a general due process standard.

15
16

Ground 5 therefore does not provide a basis for federal habeas relief.
Ground 7: Void for Vagueness

17

In the last remaining ground, Ground 7, petitioner alleges that his conviction for open and gross

18

lewdness under N.R.S. 201.210 violated his rights to due process of law and a fair trial under the

19

Fourteenth Amendment because the statute is void for vagueness.

20

The information charged Von Tobel in Count 12 with open or gross lewdness in violation of

21

N.R.S. 201.210 in that he allegedly “did then and there wilfully and unlawfully commit an act of open

22

or gross lewdness by defendant masturbating in the presence of” the victim, who was alleged vis-à-vis

23

other charges to be under the age of 14.33 She testified, using different terminology, that “at least once”

24

Von Tobel pulled down his shorts in front of her and masturbated until he ejaculated.34

25

////

26
27

33

ECF No. 24-10, at 2 & 5; Exhibit 9, at 1 & 4.

28

34

ECF No. 25-4, at 107; Exhibit 24, at 104.

-26-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 27 of 30

App. 0061

1
2

The Supreme Court of Nevada rejected the claim presented to that court on direct appeal on the
following grounds:

3

Vagueness of NRS 201.210

4

Von Tobel argues that NRS 201.210 is unconstitutional on its
face because it fails to define "open or gross lewdness." We review a
challenge to the constitutionality of a statute de novo.[FN27] Because
we presume that statutes are constitutional, a party challenging the
statute must prove that the statute is unconstitutional.[FN28] In City of
Las Vegas v. District Court, this court held that a statute is facially
unconstitutional as void for vagueness "if the statute both: (1) fails to
provide notice sufficient to enable ordinary people to understand what
conduct is prohibited; and (2) authorizes or encourages arbitrary and
discriminatory enforcement."[FN29]

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

[FN27] Silvar v. Dist. Ct., 122 Nev. 289, 292,
129 P.3d 682, 684 (2006).
[FN28] Id.
[FN29] 118 Nev. 859, 862, 59 P.3d 477, 480
(2002) (citing City of Chicago v. Morales, 527 U.S. 41,
55-56 (1999) (plurality opinion) (holding that a statute
may be unconstitutionally vague for either of the two
reasons discussed above)). The City of Las Vegas court
specifically noted conflicting lines of Nevada case law
regarding facial challenges to statutes, and specifically
modified any prior case law limiting facial challenges to
statutes affecting conduct protected under the First
Amendment. Id. at 862-63, 59 P.3d at 480. Therefore,
we reject the State's argument that NRS 201.210 was
constitutionally definite as applied to Von Tobel's
conduct and consider Von Tobel's facial challenge of the
statute. See Morales, 527 U.S. at 72 (Breyer, J.,
concurring) (describing the rule prohibiting a defendant
from challenging a statute for vagueness if it gave him
notice that his conduct was prohibited, but rejecting
application of that rule because the statute was
unconstitutionally vague for failing to provide adequate
enforcement standards and therefore, allowing a facial
challenge to the statute despite the defendant's conduct).
NRS 201.210(1) provides: "A person who commits any
act of open or gross lewdness is guilty: (a) For the first offense, of a
gross misdemeanor. (b) For any subsequent offense, of a category D
felony and shall be punished as provided in NRS 193.130." When
considering a statute's constitutional definiteness, we look not only to the
express language of the statute but also to how this court has defined. the
conduct prohibited by the statute.[FN30] This court has considered the
conduct prohibited by NRS 201.210 in several cases, most notably
Young v. State[FN3l] and Ranson v. State.[FN32]

28
-27-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 28 of 30

App. 0062

1

3

[FN30] See U.S. v. Lanier, 520 U.S. 259, 266
(1997) ("[D]ue process bars courts from applying a novel
construction of a criminal statute to conduct that neither
the statute nor any prior judicial decision has fairly
disclosed.").

4

[FN31] 109 Nev. 205, 849 P.2d 336 (1993).

5

[FN32] 99 Nev. 766, 670 P.2d 574 (1983).

2

6
7
8
9
10
11
12

In Young, this court stated the common-law definition of "open
lewdness" as "`unlawful indulgence of lust involving gross indecency
with respect to sexual conduct' committed in a public place and observed
by persons lawfully present."[FN33] The Young court held that although
the common-law definition of "open lewdness" required conduct to be
observed, NRS 201.210 had no such requirement.[FN34] This court
further held that the sexual conduct had to be intentionally public and
therefore, affirmed the convictions of several consenting adult men who
engaged in sexual conduct in a public restroom.[FN35] In Ranson, this
court further explored the definition of "open lewdness" by stating that
it did not require the activity to be in a public place but only that such
acts be committed in "an ‘open’ as opposed to a ‘secret’ manner" and
that the perpetrator "intend[ed] that his acts be offensive to his
victim."[FN36]

13
14

[FN33] 109 Nev. at 215, 849 P.2d at 343 (quoting 3 Wharton's
Criminal Law § 315 (14th ed. 1980)).

15

[FN34] Id.

16

[FN35] Id.

17

[FN36] 99 Nev. at 767, 670 P.2d at 575.

18

(ECF No. 26-15, at 11-13; Exhibit 55, at 10-12.)

19

As petitioner notes, the undersigned previously has held that the state supreme court’s rejection

20

of a similar challenge to N.R.S. 201.210 as void for vagueness was neither contrary to nor an

21

unreasonable application of clearly established federal law. See Kenneth Friedman v. Jack Palmer, No.

22

3:07-cv-00338-LRH-VPC, ECF No. 326, at 14-16, 2013 WL 4501027, at *10-*12 (D. Nev., Aug. 21,

23

2013). The Court of Appeals denied a certificate of appealability in Friedman. Id., ECF No. 341.

24

Von Tobel’s showing on the current petition does not lead the Court to a different conclusion.

25

The Court accordingly holds that petitioner has not demonstrated that the state court’s rejection of this

26

claim was contrary to or an objectively unreasonable application of clearly established federal law as

27

determined by the United States Supreme Court, for the reasons previously assigned in Friedman.

28

Ground 7 therefore does not provide a basis for federal habeas relief.
-28-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 29 of 30

App. 0063

1

The Court nonetheless writes further regarding Ground 7 because respondents seek sanctions

2

in the answer under, inter alia, Rule 11 of the Federal Rules of Civil Procedure. Respondents maintain

3

that petitioner’s counsel violated Rule 11 because the first amended petition alleges that the statute is

4

void for vagueness without mentioning that subsequent state judicial opinions had further clarified the

5

language of the statute. While the assistant federal public defender who drafted the pleading no longer

6

is with the office, respondents urge that the office was obligated thereafter to excise the faulty claim

7

after it was reassigned to a new attorney.

8

The Court is not sanguine that – even allowing for the factual specificity required in habeas

9

pleading – petitioner was required to specifically include legal conclusion allegations referencing later

10

judicial glosses on the statute in a pleading alleging that the statute was void for vagueness. In the reply,

11

petitioner does specifically discuss the later judicial glosses, which also were discussed in the state

12

supreme court decision being challenged in this case. With due respect to respondents’ counsel, one

13

must strain, mightily, to perceive any possible ethical violation and/or failure in a duty of candor to the

14

tribunal in petitioner’s filings on this claim, including in the first amended petition.

15

Moreover, Rule 11(c)(2) requires that any motion for sanctions thereunder (a) must be made

16

separately from any other motion, and (b) must be filed only after first giving the other party an

17

opportunity to correct the alleged violation within 21 days of service of the unfiled motion on the party.

18

Respondents complied with neither requirement.

19

Respondents’ request for sanctions neither is presented properly procedurally nor does it

20

demonstrate any improper filing by petitioner herein. The Court trusts that in the future respondents’

21

counsel will not present a similarly improper sanctions request again.

22
23

IT THEREFORE IS ORDERED that the petition is DENIED on the merits and that this action
shall be DISMISSED with prejudice.

24

IT FURTHER IS ORDERED that a certificate of appealability (a) is GRANTED as to the denial

25

of Ground 1 on the merits, and (b) is DENIED as to the denial of Grounds 4, 5 and 7 on the merits and

26

Grounds 2, 3 and 6 as procedurally defaulted, as reasonable jurists would not find the district court’s

27

rejection of these latter grounds to be debatable or incorrect, for the reasons discussed herein and in the

28

Court’s prior order (ECF No. 61) on the procedurally defaulted claims.
-29-

Case 3:10-cv-00073-LRH-VPC Document 71 Filed 05/01/18 Page 30 of 30

App. 0064

1

IT FURTHER IS ORDERED that petitioner’s motion (ECF No. 70) for leave to file

2

supplemental authority is GRANTED and that the Clerk shall file the accompanying notice with the two

3

accompanying decisions as attachments to the notice.

4
5
6

The Clerk shall enter final judgment accordingly in favor of respondents and against petitioner,
dismissing this action with prejudice.
DATED this 1st day of May, 2018.

7
8
9

___________________________________
________
__
____ __
________
___________
_ _________
______
LARRY
LAR
RRY
Y R. HICKS
HICK
KS
UNITED
U TED STATES DISTRICT JUDGE
UNI

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
-30-

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 1 of 33

App. 0065
1
2
3
4
5

FRANNY A. FORSMAN
Federal Public Defender
Nevada State Bar No. 00014
PAUL G. TURNER
Assistant Federal Public Defender
Nevada State Bar No. 007941
411 East Bonneville Avenue, Suite 250
Las Vegas, Nevada 89101
(702) 388-6577
(702) 388-6261 (FAX)

6
7

UNITED STATES DISTRICT COURT

8

DISTRICT OF NEVADA

9

GERALD VONTOBEL,

10
11
12

Case No. 3:10-cv-0073-LRH-(VPC)

Petitioner,
vs.
JAMES BENEDETTI, et al.,

13

FIRST AMENDED PETITION FOR
WRIT OF HABEAS CORPUS BY A
PERSON IN STATE CUSTODY
PURSUANT TO 28 U.S.C. § 2254

Respondents.

14
15

Petitioner, Gerald Vontobel, by and through his attorney, Paul G. Turner, Assistant Federal

16

Public Defender, hereby files this First Amended Petition for Writ of Habeas Corpus by a Person in State

17

Custody Pursuant to 28 U.S. C. § 2254.1

18

///

19

///

20

///

21

///

22

///

23

///

24
25
26
27
28
1

The Exhibits referenced in this First Amended Petition are identified as “Ex.” Petitioner
reserves the right to file supplemental exhibits as needed and relevant.

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 2 of 33

App. 0066
1

FIRST AMENDED PETITION2

2

I.

3

PROCEDURAL BACKGROUND

4

Vontobel is serving the following sentence: Count 1, Life with a Minimum parole eligibility

5

of Ten (10) Years: Count 2, Life with a Minimum parole eligibility of Ten (10) Years: Count 3, Life

6

with a Minimum parole eligibility of Ten (10) Years; Count 4, Life with a Minimum parole eligibility

7

of Ten (10) Years; Count 5, Life with a Minimum parole eligibility of Twenty (20) Years; Count 6, Life

8

with a Minimum parole eligibility of Twenty (20) Years; Count 7, Life with a Minimum parole

9

eligibility of Ten (10) Years; Count 8, Life with a Minimum parole eligibility of Ten (10) Years; Count

10

9, Life with a Minimum parole eligibility of Ten (10) Years; Count 10, Life with a Minimum parole

11

eligibility of Twenty (20) Years; Count 11, Life with a Minimum parole eligibility of Twenty (20) Years;

12

Count 12, a Maximum term of Forty-Eight (48) Months with a Minimum parole eligibility of Twelve

13

(12) Months; Count 14, a Maximum term of Two-hundred Forty (240) Months with a Minimum parole

14

eligibility of Ninety-Six (96) Months; Count 16, a Maximum term of Two-Hundred Forty (240) Months

15

with a Minimum parole eligibility of Ninety-Six (96) Months; Count 17, Life with a Minimum parole

16

eligibility of Ten (10) Years; Count 18, Life with a Minimum parole eligibility of Ten (10) Years; Count

17

19, to Life with a Minimum parole eligibility of Ten (10) Years; Count 20, to a Maximum term of

18

Two-Hundred Forty (240) Months with a Minimum parole eligibility of Ninety-Six (96) Months; Count

19

21, to Life with a Minimum parole eligibility of Ten (10) Years; Count 22, Credit For Time Served;

20

Count 23, Credit For Time Served; Count 24, Credit For Time Served; Count 25, a Maximum term of

21

One-Hundred Eighty (180) Months with a Minimum parole eligibility of Seventy-Two (72) Months;

22

Count 26, a Maximum term of One-Hundred Eighty (180) Months with a Minimum parole eligibility

23

of Seventy-Two (72) Months; Count 27, a Maximum term of One-Hundred Eighty (180) Months with

24

a Minimum parole eligibility of Seventy-Two (72) Months; Counts 1, 2, 3, 4, 5, 6, 7, 22, 23 & 25 to run

25

Concurrent with one another; Counts 8, 9, 10, 11, 12, 14, 16, 17, 18, 19, & 26 to run Concurrent with

26

one another and Consecutive to Counts 1, 2, 3, 4, 5, 6, 7, 22, 23 & 25; and Counts 20, 21, 23 24 & 27

27
28

2

Counsel has sent Petitioner a Verification and Acknowledgment of the First Amended
Petition for Petitioner’s signature and will file that pleading with this Court upon receipt from Petitioner.
2

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 3 of 33

App. 0067
1

to run Concurrent with one another and Consecutive to 1, 2, 3, 4, 5, 6, 7, 8, 9, 10, 11, 12, 14, 16, 17, 18,

2

19, 22, 23, 25, & 26. (Ex. 48.)

3

A.

4
5

TRIAL
Vontobel was represented by Dan Silverstein, Deputy Public Defender during pre-trial and trial

proceedings.

6

A Criminal Complaint charging seven (7) various counts was filed on August 4, 2004, in Clark

7

County, Nevada. (Ex. 4.) An Amended Complaint was filed on September 10, 2004. (Ex. 6.) A

8

Preliminary Hearing was held on September 15, 2004. (Ex. 7.) The Amended Complaint was expanded

9

to 17 various counts. During preliminary hearing, the actual amount of counts was added to again. On

10

October 15, 2004, the Information filed in the 8th Judicial District Court alleged 27 Counts in All

11

comprising Lewdness with a Child Under the Age of 14 (Felony - NRS 201.230), 13 Counts on Jessica,

12

Nickole and A.S. (minor): Sexual Assault with a Minor Under the Age of 14 (Felony - NRS 200.364.

13

200.366), 3 Counts on Jessica and Nikole; Attempt Lewdness With a Child Under the Age of 14 (Felony

14

- NRS 193.330, 201.230); Attempt Sexual Assault with a Minor Under the Age of 14 (Felony - NRS

15

193.330, 200.364. 200.366); Lewdness with a Child Under the Age of 14 With Use of a Deadly Weapon

16

(Felony - NRS 193.165, 201.230); Open Or Gross Lewdness (Felony - NRS 201.210); Child Abuse &

17

Neglect (Gross Misdemeanor - NRS 200.508) and Second Degree Kidnaping (Felony - NRS 200.310,

18

200.330), 3 counts one against each child; on or between the 1st day of January, 1999, and the 31st day

19

of January, 2002, within the County of Clark, State of Nevada. (Ex. 9.)

20

During the pre-trial stage the defense filed various motions with the court. (Exs. 12, 13 & 14.)

21

The case proceeded to jury trial on March 7, 2005, and lasted through March 22, 2005 with nine

22

days of testimony. (Exs. 19, 20, 21, 22, 24, 25, 28, 30, 31, 34 & 35) Vontobel testified at trial. The jury

23

found Vontobel guilty of Counts 1 through 12, 14 and 16-27 and not guilty of counts 13 (Count 15 being

24

stricken from the Indictment). (Ex. 37.)

25

Sentencing was held on June 1, 2005, with the Honorable Stewart L. Bell presiding. Defendant

26

was sentenced as referred to supra in paragraph one of the procedural history above. A Judgment of

27

Conviction was filed on July 5, 2005. (Ex. 47.) An Amended Judgment was filed on September 16,

28

2005. (Ex. 50.)
3

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 4 of 33

App. 0068
1

B.

DIRECT APPEAL

2

Counsel for the Petitioner, Dan Silverstein, filed a notice of appeal on July 20, 2005. (Ex. 49.)

3

The Nevada Supreme Court docketed the appeal as Case No. 45684. An Opening Brief was filed on

4

September 27, 2006. Counsel raised the following claims on direct appeal:

5
I. The trial court committed constitutional error by denying Defendant's motion for a
new trial based upon juror misconduct of engaging in unauthorized third-party
communication and failing to abide by the presumption of innocence.

6
7

II. The trial court committed reversible error in denying Defendant's motion for a
mistrial based upon a prosecution witness vouching for the credibility of other
prosecution witnesses and their statements.

8
9

III. The trial court committed reversible error in failing to declare a mistrial, sua sponte,
based upon the prosecutor making improper explanations of and elaborations on the
statutory definition of reasonable doubt, during closing arguments.

10
11

IV. Prosecutorial misconduct during closing argument deprived Defendant of a fair trial.
12
V. The trial court committed reversible error by giving an unduly prejudicial jury
instruction on the absence of a need for corroborating evidence to return guilty verdicts
on charge of sexual assault or lewdness with a minor.

13
14

VI. The trial court committed constitutional error by failing to find that NRS 201.210
is unconstitutionally vague and by failing to grant Defendant's motion to dismiss.

15
16

(Ex. 51.)

17

An Order of Affirmance was filed on February 29, 2008. (Ex. 55.) On March 20, 2008, a

18

Petition for Rehearing was filed by counsel for Vontobel. Remittitur issued on March 25, 2008. (Ex.

19

56.) The Remittitur was recalled and Stayed on April 17, 2008. (Ex. 58.) An Order Denying Rehearing

20

on the Petition was filed on May 27, 2008. (Ex. 59.)

21

C.

22

POST-CONVICTION
Vontobel filed a Petition for Writ of Habeas Corpus on July 19, 2008, asserting the following

23

grounds for relief:

24

1.

Ineffective Assistance of Counsel: Second Chair. Petitioner’s Conviction and sentence
are invalid under the federal constitutional guarantees of due process, equal protection
and the effective assistance of counsel due to the ineffective assistance of second chair.
U.S. Const. Amends V, VI, & XIV.

2.

Ineffective Assistance of Counsel: Trial Petitioner was denied his Sixth and Fourteenth
Amendment rights to the effective assistance of counsel at trial because errors of his trial
counsel fell below the Constitutionally required level of representation.

25
26
27
28

4

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 5 of 33

App. 0069
1

A.

Counsels failure to object to the premeditation and deliberation jury instruction
constituted ineffective assistance of counsel. Petitioners’ conviction and
sentence are invalid because he was deprived of his constitutional right to
effective assistance of counsel, due process of law, equal protection of the laws,
and cross-examination and confrontation.

B.

Defendants counsel failed to reasonable and meaningful investigate clients
innocence, other instances of unreasonable, prejudicial performance by trial
counsel.

2
3
4
5
6

3.

8

Petitioner was denied his Fifth, Sixth and Fourteenth Amendment right to effective
assistance of counsel when trial counsel failed to properly advise him of the
consequences of his plea and to effectively communicate with him and ensure that he
could effectively communicate with the court. HE DID NOT PLEA HE WENT TO
TRIAL.

9

A.

7

Petitioner was denied his right to a conflict-free counsel when the court
appointed the public defender to represent petitioner on direct appeal.

10
11

4.

Petitioner’s Rights were violated and was denied effective assistance of counsel prior to
and during trial in the violation of the Sixth Amendment

12

A.

Trial counsel’s failure to object to the jury instruction on reasonable doubt was
improper.

13
14

5.

Petitioner’s Constitutional Rights were violated the Sixth and Fourteenth Amendments
of the US Constitution.

15

A.

Counsel failed to object to the acts of prosecutorial misconduct.

16

B.

Counsel was ineffective by failing to note for the record and object to the
prejudicial courtroom environment and the emotional displays permitted in the
courtroom.’

C.

Counsel was ineffective by failing to adequately cross-examine witness.

17
18
19

6.

Petitioner was denied the effective assistance of counsel in violation of his Sixth and
Fourteenth Amendment Rights to the US Constitution.

20
A.

Counsel was ineffective by failing to conduct a thorough pre-trial investigation

B.

Counsel was ineffective for failing tp pursue and investigate petitioner’s theory
of defense.

C.

Counsel was ineffective for failing to object to the instances of prosecutorial
misconduct.

D.

Counsel was ineffective for failing to object to the unconstitutional reasonable
doubt instruction.

21
22
23
24
25
26
27

7.

Petitioner was denied effective assistance of counsel at trial in violation of his rights
under the Sixth and Fourteenth Amendments as a result of the errors at trial counsel (Fell
below the constitutionally required level of representation.) Petitioner suffered prejudice
and was deprived of his opportunity to present a defense.

28
5

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 6 of 33

App. 0070
1

A.

Trial counsel failed to adequately prepare and present the inconsistent statements
of the hearsay declarant whose statement implicated petitioner at trial.

2
8.
3

Ineffective assistance of counsel. Direct appeal. Petitioner was denied his constitutional
right to the effective assistance of counsel both prior to and during his state trial and on
direct appeal to the Nevada Supreme Court.

4
A.

Petitioner was denied effective assistance of counsel on direct appeal in violation
of the firth and Fourteenth Amendments of the US Constitution.

B.

Appellate counsel failed to challenge jury instruction on implied malice and was
improper and violated NRS 47.2340

C.

Appellate counsel’s failure to challenge jury instruction on reasonable doubt was
improper.

D.

Appellate counsel failure to challenge petitioner’s right to be sentenced by the
jury was improper.

5
6
7
8
9
10
9.
12

Defendant in a Criminal Case is entitled to the effective assistance of counsel on appeal.
Because of appellate counsel’s errors which fell below the standards for the effective
assistance of counsel, petitioner is imprisoned in violation of his 5th, 6th and 14th
Amendment right to effective assistance of appellate counsel.

13

A.

11

14
10.
15

Failure to challenge constitutionality of jury instructions 6, 8 and 13. 6 Implied
Malice; 8 Premeditation and deliberation and 13, reasonable doubt.

Petitioner is in custody I violation of his right to due process as guaranteed by the 4th and
14th Amendments to the US constitution as there was insufficient evidence presented at
the preliminary hearing to bind him over for trial.

16
A.
17

Petitioner was denied his 6th and 14th Amend. Right to the effective Assis. Of
counsel when counsel failed to conduct any pre-trial investigation to investigate
evidence and witness in support of petitioner’s theory of defense.

18
11.
19

Petitioner is in custody in violation of his right to due process and a fair trial as
guaranteed by the 5th and 14th amendments as there was insufficient evidence presented
at trial to support a finding beyond a reasonable doubt.

20
A.
21
22

24

Petitioner’s conviction and sentence are invalid under the federal constitutional
guarantees of due process and equal protection due to the states failure to disclose
material exculpatory and impeach evidence Amend. 5, 6, and 14.

25

A.

23

12.

Petitioner’s conviction and resulting are invalid under constitutional guarantees
of due process and a fair trial due to the absence of sufficient to support beyond
a reasonable doubt, a factual basis for the necessary element of criminal agency
for culpability for the offense. Amend 5 and 14

26
27
28

13.

Petitioner’s conviction and sentence are invalid under the Federal Constitutional
Guarantees of due process and equal protection, as the result of the substantial
and injurious effect produced by the states undisclosed inducements provided to
prosecution witness, whose testimony was inherently unreliable and rendered the
trial fundamentally unfair. US Const. Amend. V, VI,& XIV.

Conflicted Counsel Petitioners Constitutional right to the effective assistance of counsel
6

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 7 of 33

App. 0071
1

under the Sixth and Fourteenth Amendments was violated because he was represented
by an attorney who labored under an actual conflict of interest

2
A.

Petitioner was denied his right to conflict-free counsel when the court appointed
the public defender to represent petitioner on direct appeal.

B.

Petitioner conviction and sentence are invalid under the constitutional guarantees
of due process of law, equal protection of the laws and effective assistance of
counsel because petitioner was not afforded effective assistance of counsel or
conflict free counsel on appeal. VI & XIV.

3
4
5
6
14.
7

Petitioner is imprisoned in violation of his 5th and 14th amendments due process rights
because the cumulative effect of the trial errors denied him a fair trial and as a result the
petitioner is imprisoned in violation of his constitutional right to Due Process.

8
A.

Prosecutorial misconduct violated petitioners constitutional rights as guaranteed
by the 5th, 6th and 14th amendments.

B.

The trial court committed reversible error by refusing to grant defendants motion
for new trial.

C.

Petitioner is in custody in violation of his right to due process and a fair trial as
guarantees by the 5th, 6th and 14th Amendments to the us const. As a result of
Nevada Law which permitted petitioner to be convicted of sexual assault based
solely on the uncorroborated testimony of the victim.

D.

Petitioner is in custody in violation of his right to due process as guaranteed by
the 5th & 14th amendments due to the trial courts error in handling evidence of
testimony by prosecution witness that in his opinion a sexual assault had
occurred.

9
10
11
12
13
14
15
16
15.
17

Petitioners sentence is invalid under the federal const. guarantees of due process and
equal protection due to the admission of material unreliable, evidence concerning
petitioners supposed attempt to manufacture a weapon during trial.

18
A. Petitioner is in custody in violation of his rights to due process and a fair trial as
guaranteed by the 5th & 14th Amendment due to the introduction at trial of repetitive
irrelevant and prejudicial evidence.

19
20

B.

Characterization of defense expert witness as “hired gun”.

21
16.
22

Petitioner is in custody in violation of his right to due process and a fair trial as
guaranteed by the 5th and 14th amendment and his 6th right to counsel due to the trial
courts abuse of discretion in denying petitioner motion to continue trial.

23
A.
24
25
26
27

17.

And due to judicial coercion as the judge coerced the jury to reach a verdict after
they had indicated that they were at deadlock.

The petitioners right to a fair trial as articulated by the 6th and 14th amendments was
undermined by an incomprehensible and legally invalid jury instruction on proximate
cause which, in conjunction with an erroneous instruction on contributory negligence
effectively eliminated the need of the jury to find that the prosecution had proved that
element beyond a reasonable doubt. (I don’t see any instruction on proximate cause or
contributory negligence.)

28
7

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 8 of 33

App. 0072
1

A.

The jury instruction on malice was improper as it allowed the jury to presume
malice without proof beyond a reasonable doubt in violation of NRS 47.230 thus
violating petitioners 5th, 6th and 14th Amendment rights to due process.
(No malice instruction given that I can see.)

B.

Petitioners constitutional right to due process was violated because jury
instruction on reasonable doubt was improper.

C.

Petitioner is in custody in violation of his rights to due process and a fair trial is
guaranteed by the 5th and 14th amendments due to the trial courts failure to
instruct on a lesser crime.

2
3
4
5
6
7

18.

Petitioner’s right was deprived to due process of law equal protection of the laws
effective assistance of counsel and trial by jury due to the removal of a juror during trial

8
A.

Petitioners conviction and sentence are invalid under the federal constitutional
guarantees to due process of law and equal protection of the laws and trial by an
impartial jury due to the presence on his jury of a juror who did not meet
constitutional standards of impartiality.

11

B.

And instances of juror misconduct.

12

C.

Petitioner was deprived of his right to due process of law equal protection of the
laws, and trial by an impartial jury by the state trial court refusal to grant
challenges for cause against jurors who did not meet constitutional standards of
impartiality.

9
10

13
14
19.
16

Petitioners conviction and sentence are invalid under the federal constitutional guarantees
due process equal protection and trial before an impartial jury because the testimony of
the unqualified state expert witness was not reliable and her conclusions were not based
on approved methods that could be tested by other experts in her field.

17

A.

And due to the failure of the defense mental health expert to provide complete
assistance.

B.

When the trial court erroneously instructed the jury regarding a unanimous
verdict.

15

18
19

21

Petitioners violation of his due process rights under the 5th and 14th amendments are
because the state failed to preserve potentially exculpatory evidence and when the state
failed to conduct a forensic evaluation of the time of the incident.

22

A.

20

20.

And when the state was allowed to participate in the ex-parte application for an
investigator and expert fees.

23
21.

Petitioner’s conviction and sentence are invalid under federal constitutional guarantees
of due process due to the failure of the Nevada Supreme Court to conduct a fair and
adequate appellate review. V, VI, & XIV

22.

Petitioners conviction and sentence are invalid under the federal constitution of due
process equal protection at public trial and freedom of the press because the trial court
refused to allow portions of the trial to be recorded.

24
25
26
27

A.

And due to the courts failure to record critical proceedings

28
8

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 9 of 33

App. 0073
1

B.

2

And the effective assistance of counsel the confrontation and cross-examination
of witness due to the lack of a complete and adequate record which prevented
effective confrontation of the states witness and rendered appellate review of his
conviction and sentence fundamentally fair (sic).

3
4

23.

Petitioners final argument to the jury was blatant and intentional violation of petitioners
constitutional rights to due process

5

A.

The prosecutors misstatement of facts at the end of his closing argument denied
petitioners his 14th Amendment Due Process right to a fair trial.

B.

And because the state prosecutor engaged in several instances of prosecutorial
misconduct during the trial which related to the introduction of inadmissable
character evidence and lacks foundation relevance and corroboration.

C.

And due to instances of prosecutorial misconduct.

D.

And trial before an impartial jury due to the substantial and injurious effect of a
consistent pattern of prosecutorial misconduct and overreaching which distorted
the fact finding process and rendered the trial fundamentally unfair.

E.

And due to instances of prosecutorial misconduct and the characterization of
defense expert witness as “hired gun”.

13

F.

Prosecutor personal belief as to the guilt of the petitioner.

14

G.

Prosecutors reference to petitioners beliefs as to the guilt of the petitioner.

15

H.

And as the prosecutor engaged in the prosecutorial misconduct by injecting his
personal beliefs into his argument and attempted to shift the burden of proof to
petitioner. And other false and misleading testimony and information
misconduct in argument.

6
7
8
9
10
11
12

16
17
24.
19

Petitioner conviction and sentence are invalid under the federal const. Guarantees due
to the failure to provide him with meaningful access tot he resources needed to prepare
and present his defense including reasonable access to research materials and a
competent experienced and adequately funded investigator.

20

A.

And due to the Clark County Public Defenders office to provide him with
resources necessary for his defense.

B.

And the right to trial in the state and district where his crime was committed
because petitioner was convicted and sentenced in Clark County Nevada for
offenses over which the courts jurisdiction was not proved beyond a reasonable
doubt.

24

C.

And when law enforcement failed to adequately investigate the case.

25

D.

And the trial courts refusal to allow petitioner the opportunity to have an expert
conduct a physical and psychological examination of the alleged victims violated
his right to a fair trial and due process as provided for in the 6th Amendment.

18

21
22
23

26
27
28

(Ex. 60.)
A. “Findings of Fact, Conclusions of Law and Order” drafted by the Clark County District
9

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 10 of 33

App. 0074
1

Attorney was signed by the court and filed on October 21, 2008. (Ex. 63.)

2

A Notice of Appeal was filed in proper person by Vontobel on October 10, 2008. An Order of

3

Affirmance was filed in case number 52569 by the Nevada Supreme Court on January 7, 2010. (Ex. 65.)

4

Remittitur issued on February 2, 2010. (Ex. 66.)

5
6

The current Petition for Writ of Habeas Corpus in the United States District Court was mailed
by Vontobel on January 28, 2010. CR 5.

7

II.

8

INTRODUCTION

9

A chronological review of the events preceding Mr. Vontobel’s arrest in this case and being

10

charged with numerous felonies strongly suggests conscious planning and a pattern of deceit on the part

11

of Jessica Hoffman, the state’s key witness. The following time line clearly shows that at the very least,

12

Hoffman lied about her awareness of the alleged sexual abuse of her siblings and embarked on a strategic

13

quest to (1) sever her relationship with her mother — who had reentered the fight to maintain parental

14

control of her children – and (2) gain her state funded independence by living as an independent ward

15

of the state. As her mother’s (Shannon Schumacher’s) efforts to hold on to custody begin to intensify,

16

Jessica counters those attempts with her own allegations against Vontobel furthering her mother’s

17

reputation with the family court as an irresponsible and unfit mother who cannot supervise her children.

18

!

JANUARY 2003

While Jessica is in foster care her mother, Shannon
Schumacher, continues to visit and contact Jessica. (Pat
Lehman notes of January 2003, Ex. 71.)

!

FEBRUARY 2003

Shannon makes so many calls to Jessica that her foster
mother tells Jessica that she can refuse to take the calls.
(Pat Lehman notes of February 2003, Ex. 72.)

!

MARCH 2003

Foster mother is told by Jessica that Jerry Vontobel
molested her. (Pat Lehman notes of March 2003, Ex. 72.)

!

JULY – SEPT. 2003 Jessica is in Florida with siblings.

!

FEBRUARY 2004

19
20
21
22
23
24
25
26
27

Shannon Schumacher goes to Florida with the hope of
regaining custody of children. (See, Michelle MolinaPrice trial testimony at Ex. 28, p. 70.) Of note is MolinaPrice’s testimony that she keeps her juvenile clients
informed of all developments related to their case – and
moreover, that she did tell Jessica about Shannon’s efforts
for reunification. (Id. at p. 68)

28
10

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 11 of 33

App. 0075
1

!

FEB. 24, 2004

Shannon Schumacher informs Michelle Molina-Price in
a phone call that she fully intended to challenge the
termination of her custody of the children. Schumacher,
here-to-for a totally disinterested mother is making
considerable efforts to maintain custody and most
certainly alarming Jessica who would recognize this as an
effort by her mother to maintain control. (Ex. 28, T.T.
Vol. 6 at p. 68)

!

MARCH 8, 2004

Shannon Schumacher visits Molina-Price in person and
reiterates that she refuses to give up on the reunification
of her family. (Id., p. 70.)

!

MARCH 12, 2004

Jessica tells Molina-Price for the first time that Jerry
Vontobel molested her. (Id., p. 64.)

!

MARCH 15, 2004

Shannon goes and sees Molina-Price providing her new
address and again reenforces her commitment to maintain
her custody of children. (Id., p. 71.)

!

MARCH 23, 2004

Molina-Price reports alleged sexual abuse of all three (3)
Schumacher children to Metropolitan Police Dept. (Ex.
3.) Coincidentally, on this same visit Jessica expressed
her desire to go to Florida to “visit” her siblings. (Ex. 28,
Vol. 6, p. 89.) Later, at trial, Molina-Price testifies under
oath that while neither of the younger children ever
reported any abuse to her personally, she provided Metro
detectives the addresses of the two younger siblings in
Florida. (Id., pp. 60 & 92.) Specifically the report states:
“On March 23, 2004, an Abuse/Neglect complaint was
taken as well as an LVMPD crime report for victim's
Jessica Hoffman, dob 7-8-87; Nikole Schumacher, dob
11- 27-91; and A.S., dob 7-11-95, for the investigation of
sexual abuse. All three victim's are related as sisters and
brother. . . . Jessica Hoffman disclosed to her counselor,
Michelle Price of the State Division of Child Family
Services of sexual abuse, which she stated her mother's
(Shannon Schumacher) ex-boyfriend, whom Jessica
knows only as Jerry Von Tobel was the suspect. Price
called the LVMPD Sexual Assault detail and the report
was generated. . . . Hoffman stated the following,
however not verbatim. I asked Jessica if she knew the
reason for this interview, Jessica stated it was to talk
about Jerry Von Tobel. Jessica continued to say Von
Tobel abused her, her brother and sister, A.S. and
Nikole Schumacher, as well as molesting them. Jessica
stated this occurred three to four years ago.” (Ex. 3.)
(emphasis added.)

!

MARCH 24, 2004

Shannon Schumacher and Jessica Hoffman appear in
Clark County Family Court Hearing on Permanency
Review along with case worker Molina-Price. At this
hearing, Schumacher is emphatic that she needs counsel
so she can continue to fight for her parental rights;
meanwhile, Jessica tells the court she is looking forward

2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

11

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 12 of 33

App. 0076
1

to living on her own in independent living placement.
(Interesting to note here is the lack of any mention during
this court hearing of the alleged abuse and police
involvement with the children, reported only one day
earlier.) (See, Ex. 70.)

2
3
!

MAY 2004

Foster Mother Pat Lehman indicates in her notes how
shocked and upset Jessica is after receiving a call from
her siblings in Florida telling her of sexual abuse at the
hands of Vontobel. Jessica is crying and “visibly shaken”
after talking to her siblings. She tells her foster mother
she was unaware of the sexual abuse of her siblings
despite the fact that in March she reported to Metro police
that all three of them had been sexually assaulted by
Vontobel. Jessica’s alleged shock and dismay are not born
out by the record. (See May 2004 notes of Pat Lehman
(Ex. 74) and Declaration of Warrant/Summons by John
Baltas, Ex. 3.) To quote from the Notes from the foster
mother on that date: “Jessica received a call from her
grandmother and siblings in Florida. She began to cry
while on the phone and was visibly shaken after hanging
up. Jessica’s younger sister and brother informed her
that they had been sexually molested by the man
Jessicca referred to as Jerry. There had been many
abuses and Jessica had been sexually molested but she
was unaware that he had sexually molested the
children. ... It is recommended that the counseling take
place while Jessicca is there to give them emotional
support.” (See May, 2004 notes, Ex. 74.) (Emphasis
added.)

!

JUNE 2004

19

Jessica goes to Florida to offer “emotional support” to her
siblings because they are being interviewed by local
police in Florida with regard to the abuse allegations. Not
surprisingly, Jessica is actually present during these
interviews. (May Report of Pat Lehman (Ex. 74) and
T.T., Vol. II, Ex. 21 at p. 22.)

20

It goes without saying that something is very amiss when Jessica reports to authorities in March, 2004,

21

that Vontobel has sexual abused her siblings yet just over a month later dramatically tells her foster

22

mother she was just informed for the first. It is one thing to fabricate a story such as this; it is another

23

to fabricate two contradictory stories.

24

///

25

///

26

///

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18

27
28
12

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 13 of 33

App. 0077
1

III.

2

GROUNDS FOR RELIEF

3

GROUND ONE

4

PETITIONER WAS DENIED HIS SIXTH AND FOURTEENTH
AMENDMENT RIGHT TO CONFRONTATION AND TRIAL BY
AN IMPARTIAL JURY WHEN, DURING THE COURSE OF THE
TRIAL, A JUROR ENGAGED IN AN UNAUTHORIZED
CONVERSATION WITH A LAW ENFORCEMENT OFFICER
WHO OPINED THAT A CRIMINAL DEFENDANT WOULD NOT
BE ON TRIAL UNLESS HE HAD DONE SOMETHING WRONG,
NEGATING VONTOBEL’S RIGHT TO THE PRESUMPTION OF
INNOCENCE.

5
6
7
8
9
10
11

Statement of Exhaustion: This claim was presented as Argument I of “Appellant’s Opening Brief
on direct appeal. See Ex. 51.
1.

This was a close case for the jury. It commenced deliberations on Friday, March 18,

12

2005, and returned verdicts on Tuesday, March 22, 2005. Exs. 34, 35, 37. Late Friday afternoon, March

13

18, 2005, the jury submitted a note the court deemed “pretty significant” that

14

We can’t agree on Counts 1 through 12, 14, 16 through 21.

15

We do agree on Counts 22 through 27, and Count 13.

16

How do we proceed? If in Instructions, what page?

17

There are two jurors with no further amount of deliberation will change
their vote.

18
Ex. 33; Ex. 34, p. 2, ll. 4-8, 14. The jury ultimately found Vontobel guilty of 25 Counts.
19
2.

As reported by trial counsel the following events occurred during and just after the

20
conclusion of Vontobel’s trial resulting in a motion for new trial (Ex. 38).
21
22
23
24
25
26
27

1.
I am an attorney duly licensed to practice law in the State of
Nevada; I am the Deputy Public Defender assigned to represent the
Defendant in the instant matter, and the Defendant has represented the
following facts and circumstances of this case.
2.
That after a two-week jury trial, the Defendant, Gerald Vontobel,
was convicted by a jury of numerous counts of sexual assault, lewdness
with a minor, child abuse and neglect, and second-degree kidnapping.
3.
That during jury selection, each prospective juror was questioned
by the Court and defense counsel regarding their attitudes regarding the
presumption of innocence, and whether they believed in that concept and
would be willing to apply it in the instant case.

28
13

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 14 of 33

App. 0078
1

4.
That during jury selection, each prospective juror was further
questioned by the Court about their relationship to law enforcement, and
whether they had any friends or relatives who worked in law
enforcement.

2
3

5.
That during jury selection, each prospective juror was told by the
Court that it was of utmost importance that their answers be truthful and
accurate.

4
5

6.
That to the best of your declarant's recollection, during jury
selection, Juror No. 200, Jimmie Petersen, did not express any
reservations regarding the application of the presumption of innocence,
nor did he mention any friendship or relation to any law enforcement
officer.

6
7
8

7.
That after the reading of the verdict, your declarant remained in
the courtroom to speak with the jurors, along with co-counsel, Amy
Coffee, and Deputy District Attorney Mary Kay Holthus. That during
this informal discussion with the jurors, Juror No. 200, Jimmie Petersen,
was asked what factors in the case had an impact on his verdict. Petersen
then remarked, “It's like my neighbor, who is a cop, always says, ‘He
wouldn't be here if he didn't do something.’ ”

9
10
11
12

8.
That Petersen's post-verdict comments reflect that he withheld at
least two highly relevant facts during the jury selection process; (1) that
Petersen lives next door to a police officer and this officer's opinions
influenced Petersen's decision-making process, and (2) that Petersen
either did not understand or failed to apply the constitutional presumption
of innocence while deliberating this case.

13
14
15
16

9.
That Petersen's failure to disclose either of these two relevant
factors during jury selection prejudiced Gerald Vontobel's rigtt to a fair
trial. Specifically, had Petersen disclosed his close ties to a member of
law enforcement, or his belief that simply being on trial was, in itself,
evidence of guilt, the Defendant could have either challenged Petersen for
cause, or used one of his remaining peremptory challenges to have
Petersen removed from his jury.

17
18
19
.
20

10.
That pursuant to NRS 176.515(1), this Court has the power to
grant the Defendant a new trial where required as a matter of law. Here,
where a juror's failure to disclose important factors during jury selection
prejudiced the Defendant's right to a fair trial, your declarant believes that
the Defendant is entitled to a new trial as a matter of law.

21
22
23
24

Declaration of Dan A. Silverstein, 3/22/05, Ex. 38, pp. 2-3.
3.

At the conclusion of an evidentiary hearing on April 12, 2005 (Ex. 45), the trial court

25

found that the juror’s discussion with his neighbor, a police officer, about the unpleasantness of his

26

serving as a juror in Vontobel’s case violated the court’s instructions and was an impermissible

27

discussion. Ex. 45, p. 42, ll. 6-9. However, based solely on her subjective appraisal of the juror’s

28

testimony the court denied the motion, never having inquired as to whether other jurors were aware of
14

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 15 of 33

App. 0079
1

the police officer’s comment.

2

Then my analysis needs to be whether or not as a result of that
impermissible discussion, was he influenced by the discussion? Was he
subsequently unable to maintain the oath that he had taken to keep an
open mind, to be fair to both sides in this case? I found from his
testimony that he never swayed in his belief that he was obligated to
listen to the facts and the evidence in this case, and render a verdict only
after he listened to all of the witnesses, saw all of the evidence, and began
deliberation with his fellow jurors.

3
4
5
6

He never wavered with respect to the presumption of innocence.
He did not have a preconceived idea about the guilt or innocence of this
case. His discussion with the neighbor did not affect his belief or reliance
upon the presumption of innocence, and although I stopped short, or tried
to stop short in my questioning as to whether or not he had made up his
mind about the guilt or innocence of this defendant before he began
deliberations, he responded that he had not, and then he gave me more
information than I think we were entitled to when he said: Well, actually
I changed my mind several times during the deliberative process.

7
8
9
10
11

So while I find that this juror went - had a conversation with a
neighbor that discussed his apparent physical reaction to a case that he
was a juror on, I find no evidence that the nature of the case was
discussed; that the conversation itself had any influence on the
determination of guilt or innocence in this case; that the respect for the
presumption of innocence remained un-violated - inviolate I believe is the
correct word for that - until such time as this juror deliberated with the
other jurors, weighed and balanced presumably the evidence, applied the
law as given In the instructions, and that there is no error that would
require the granting of the motion for a new trial; and that will be this
Court's order.

12
13
14
15
16
17

Id. at p. 42, l. 10 – p. 43, l. 9.
18
4.

As a result of such juror misconduct Vontobel lost his Sixth and Fourteenth Amendment

19
rights to (1) challenge the police officer’s statement as contrary to the presumption of innocence and
20
confront it through cross-examination as unsupported speculation and (2) his right to be tried by an
21
impartial jury.
22
5.

Following a timely appeal, the Nevada Supreme Court found as a fact that the juror “was

23
exposed to the neighbor’s outside opinion that anyone on trial as a criminal defendant must have done
24
something wrong.” Ex. 55, p. 2. Concluding that the juror’s discussion with his neighbor, a police
25
officer, did not concern the case’s particular facts, the Nevada Supreme Court “conclude[d] that a
26
presumption of prejudice does not apply” and that “[r]eviewing the trial as a whole,” Vontobel had the
27
burden of proving “that there was a reasonable probability that the juror misconduct affected the
28
15

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 16 of 33

App. 0080
1

verdict.” Id. at 3. Further acknowledging that it “must apply an objective test as to whether such

2

exposure would affect a reasonable juror and may not inquire into the actual effects the extrinsic

3

evidence had on deliberations[,]” the court concluded that Vontobel had not met the burden of proof

4

imposed on him, i.e. “has failed to show a reasonable probability that the misconduct affected the

5

verdict.” Id. at 4. After reviewing additional claims, it affirmed the district court.

6

5.

Mr. Vontobel alleges that the state court’s disposition of this claim was contrary to, and

7

an unreasonable application of, clearly established federal law. He further alleges that the state court’s

8

disposition of this claim was an unreasonable determination of the facts in light of the evidence

9

presented.

10
11

6.

Accordingly, for the foregoing reasons, the writ should be granted and Vontobel’s

convictions vacated.

12

GROUND TWO

13

TRIAL COUNSEL’S FAILURE TO CONDUCT A PROPER PRETRIAL INVESTIGATION OF THE CASE, INCLUDING HIS
CLIENT’S CLAIM OF INNOCENCE, AND HIS RESULTANT
INABILITY TO ADEQUATELY PREPARE FOR CROSSEXAMINATION DENIED VONTOBEL HIS SIXTH AND
FOURTEENTH AMENDMENT RIGHT TO THE EFFECTIVE
ASSISTANCE OF COUNSEL.

14
15
16
17

Statement of Exhaustion: This claim was presented in Vontobel’s state post-conviction petition

18

(Ex. 60, Claims 2(C) and 10(A)), which was denied on its merits by the Nevada Supreme Court. See

19

Ex. 65.

20

1.

Vontobel informed his trial counsel prior to the beginning of trial and during the

21

formulation of the defense plan of various witnesses that would be helpful to the defense and could

22

provide information regarding his relationship with Shannon Schumacher and the alleged victims. In

23

this classic “she said/he said” case with absolutely no other proof except the testimony of three (3) minor

24

children, the investigation into Vontobel’s relationship with the children was vital. The names he

25

provided included all those listed below with the exception of Carrie Harrist, people who had personal

26

knowledge of the tenor of his interaction with the children during the times that he allegedly was either

27

beating, abusing and/or sexually assaulting them:

28

///
16

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 17 of 33

App. 0081
1

a.

JIM SHEHANE

2

Jim Shehane met Shannon Schumacher (the children’s mother) through a welfare

3

organization that was helping her to find work in 1997. He hired Shannon and then was introduced to

4

Gerald Vontobel and also hired him. Shehane picked up Vontobel each work day and then returned him

5

to the apartment after work. He indicated in a declaration obtained by the office of the Federal Public

6

Defender on March 8, 2011, that the children eagerly awaited Vontobel’s return to the apartment each

7

day and would run to meet him. “In many afternoons of watching Vontobel interact with Schumacher’s

8

children, never once did I see any indication that they were fearful of Vontobel, or that he was abusive

9

to them in any manner. Had I seen any suggestion otherwise, I would have intervened immediately.”

10

Ex. 78 at p. 2. Continuing in his observations he said, “Though Vontobel was frank about his

11

frustrations with Schumacher, he never expressed anything but concern for her children, who he helped

12

support.” (Id.) He observed Schumacher was . . . “generally a good employee, it was clear she lead a

13

drug user’s lifestyle outside of work, and was wanting as a mother. .” ...”Vontobel became the children’s

14

default authority figure, sometimes disciplining them when Schumacher did not care enough to.”

15

Although Shehane was contacted pretrial by the District Attorney’s investigator and told he

16

would be subpoenaed to testify at trial, he never was. Shehane was not contacted by anyone from the

17

defense team with regard to what he knew about Schumacher or the children.

18

b.

RONALD ALTIC

19

Mr. Altic was a co-worker of Schumacher and Vontobel. He also worked for

20

Shehan and lived in the same apartment complex as Schumacher and Vontobel. He observed the

21

children on an almost daily basis and was “close” to them. (See Ex. 79.)

22

of March 10, 2011, Altic stated, “Vontobel helped Schumacher take care of her children, financially and

23

with parenting. Schumacher’s children never appeared fearful of Vontobel, never had more bumps and

24

bruises than any other rambunctious children, and were never locked in their rooms for extended periods

25

of time. . . . [The] children did not go hungry, nor were they ever forced to sleep outside to avoid their

26

mother’s partying.” (Id.) “I never saw any signs that Vontobel was abusing Schumacher’s children in

27

any way, nor did anybody-child or adult- even hint that Vontobel was being abusive to Schumacher’s

28

children.”
17

In his declaration obtained

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 18 of 33

App. 0082
1

Altic knew Vontobel and Schumacher while they were living in the two apartment complexes

2

that the children claimed to have been living in when they were abused. He had daily contact with the

3

children, the mother and with Vontobel.

4
5

Altic was not contacted by anyone from the defense and in fact did not know that Vontobel had
been accused and was “shocked” to find out about his incarceration. (Id.)

6

c.

CARRIE HARRIST

7

Starting in August of 2001, Ms. Harrist allowed Shannon Schumacher and her

8

three children to stay with her temporarily after their eviction from the apartment they were living in.

9

By this time Vontobel and Schumacher were no longer living together. Ms. Harrist observed various

10

interplays with the children. In her view, Jessica, served as a parent to the siblings and even acted as

11

disciplinarian to A.S..

12

She remembered that on one occasion Gerald Vontobel came to the apartment to pick Shannon

13

up to take her out. “Shannon’s children did not act scared or frightened of Vontobel, nor did they ever

14

tell me that Vontobel had abused or touched them sexually.” (Ex. 77.)

15

She additionally remembers that she took Jessica and Nikole to the Joshua Estates apartment

16

complex, where they saw Gerald Vontobel on the property. Upon seeing Vontobel, Jessica and Nikole

17

ran to him and hugged him. When I asked why the girls had greeted Vontobel so warmly, they told me

18

Vontobel was like a father to them.” (Id.)

19

During this same time a girl living in the apartment complex was reportedly sexually assaulted.

20

This incident was a big deal in the complex and something that was discussed with Shannon’s children.

21

Ms. Harrist made it clear to the children that they could and should tell her if anyone ever acted

22

inappropriately towards them. They never said anything about having been touched or molested by

23

Vontobel.

24

Finally, Ms. Harrist declares: “I have not seen Shannon or her children since shortly after CPS

25

took the children away, nor was I ever contacted by anybody from the Clark County District Attorney

26

or Public Defender’s office regarding Gerald Vontobel.” (Id.)

27
28

d.

AMY HAINS
Ms. Hains was a friend of Jessica and met her at the Emerald Estates Apartments
18

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 19 of 33

App. 0083
1

in roughly 1996. They were both around 10 or 11 years old at the time. She remembers Gerald

2

Vontobel living at the apartment as well. The girls remained close friends even after Jessica moved to

3

the Summerhill Apartments. Amy stayed with Jessica for a period of several weeks at Summerhill while

4

her own mother was hospitalized. She continued her association with Jessica through several different

5

living situations until finally losing touch with her after Jessica moved to a group home.

6

She declares: “Jessica Hoffman never told me that she or her siblings had been molested or

7

touched sexually by Gerald Vontobel. . . . I regularly played and hung out with Jessica, and do not

8

remember her or her siblings being held inside, against their will, for any unusual periods of time.” Ex.

9

75, pp. 1-2. Additionally, while visiting with Jessica at the trailer that Jessica moved to later she does

10

not recall Jessica needing to exchange sex for food or anything of that nature. She declares that she and

11

her mother would have brought them food if they needed it.

12

Finally she declares that, “I was never contacted by anybody from the Clark County District

13

Attorney or Public Defender’s office regarding Gerald Vontobel. I was unaware that my name or

14

relationship with Jessica Hoffman came up at the trial. I was unaware both prosecutors and defense

15

attorneys had included me in lists of potential witnesses. ...I would have been available to testify, as I

16

am today.” (Id., p. 2.)

17

e.

ESTHER GRAHAM

18

Esther worked with Shannon at a Factory 2 U retail outlet. She visited Shannon

19

and the children multiple times while they were living with Gerald Vontobel. On October 17, 2001, the

20

children came to her apartment asking for help. They had not seen their mother for three days. Esther,

21

concerned for the children, let them stay. She retains a calendar on which she made a note of the

22

children’s arrival at her apartment. Another note on the calendar, a month later, is of the date of a

23

celebration for Nikole’s birthday.

24

Ms. Graham declares that “Shannon Schumacher’s children did not act scared of Vontobel, nor

25

did they ever tell me Vontobel had hurt or sexually abused them in any way. Had the children told me

26

anything of the sort, I would have immediately informed the authorities.” (Ex. 76, p. 2.) Ms. Graham

27

herself liked Vontobel who did not appear to be anyone who would hurt or abuse children.

28

Ms. Graham was concerned about the children being exposed to Shannon’s lifestyle of drug use
19

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 20 of 33

App. 0084
1

and drifting. She offered to take the children for Shannon temporarily so that Shannon could get her life

2

under control; however, Shannon was not interested in the arrangement. She states, “I was never

3

contacted by anybody from the Clark County District Attorney or Public Defender’s Office regarding

4

Gerald Vontobel. I was unaware that my name or relationship with Shannon Schumacher or her children

5

came up at the trial.” (Id.)

6

f.

SIMEON HOLLOWAY, Jr.

7

In 1999, Simeon Holloway was living in the same apartment complex as Vontobel

8

and working with him at Jim Shehane’s company. Vontobel was his neighbor and best friend at that

9

time. He also rode to work and home with Shehane, Schumacher and Vontobel. After work, Vontobel

10

would often take Schumacher’s children to a nearby convenience store and buy them treats. He states:

11

“I remember Schumacher’s children running to greet Vontobel after work, happy and hopeful he would

12

buy them treats.”

13

“Vontobel helped Schumacher with finances and child care. Vontobel was more than just

14

Schumacher’s live-in boyfriend; he tended to her children as a parent would. While Schumacher’s two

15

youngest children liked Vontobel, her oldest child - a girl - clearly did not appreciate a second set of eyes

16

monitoring her behavior and dress, which was often provocative.”

17

Simeon explains that his girlfriend at the time had a child with developmental disabilities and

18

Vontobel and Simeon often watched the child together. “Vontobel was someone my girlfriend and I

19

trusted to care for her needy child.” “I regularly saw Vontobel interact with Schumacher’s children over

20

the course of at least two years. In that time, I never saw any indication that Schumacher’s children were

21

scared of or being abused by Vontobel, not did I see Vontobel behave inappropriately towards any

22

children. While Schumacher and Vontobel often broke up and got back together, I never saw Vontobel

23

be anything other than a nice guy to Schumacher’s children. I stopped working for Shehane in roughly

24

2004, after which I lost contact with Vontobel and Schumacher, neither of whom I have spoken with or

25

seen since.” (Ex. 80, p. 2.)

26

3.

None of the people listed above were contacted by defense counsel who, consequently,

27

lacked information to effectively challenge the testimony of Jessica, Nikole and A.S. Instead of being

28

able to confront the children’s testimony with such strong, third-party evidence of Vontobel’s good
20

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 21 of 33

App. 0085
1

relationship with the children defense counsel was forced to call the defendant himself as the only

2

rebuttal witness.

3

4.

4

In failing to investigate the case counsel was rendered unable to adequately prepare for

cross examination.

5

5.

Trial counsel’s failure to investigate the case and offer a series of third-party witnesses

6

verifying Vontobel’s good relationship with the children constituted deficient performance that

7

prejudiced Vontobel. His conviction flowed in large part from the inadequate investigation by defense

8

counsel.

9
10

6.

Accordingly, for the foregoing reasons, the writ should be granted and Vontobel’s

convicitons vacated.

11

GROUND THREE

12
PETITIONER WAS DENIED HIS RIGHT UNDER THE
FOURTENTH AMENDMENT TO THE UNITED STATES
CONSTITUTION TO DUE PROCESS OF LAW AND A FAIR
TRIAL WHEN WITNESS JAMES MEISSNER WAS ALLOWED
TO VOUCH FOR A.S. AND NIKOLE SCHUMACHER’S
CREDIBILITY BY TESTIFYING THAT HE SAW NO EVIDENCE
THAT THEY WERE COACHED OR SUBJECT TO EXTERNAL
PREJUDICE.

13
14
15
16
17
18

Statement of Exhaustion: This claim was presented as Argument II of “Appellant’s Opening
Brief on direct appeal. See Ex. 51.

19

1.

James Meissner, an employee of the Pasco Child Protection Team, an agency of the

20

Florida Department of Health, agreed to conduct a forensic interview of A.S. and Nikole Schumacher,

21

who were then living in Florida with their paternal grandmother, at the request of the Las Vegas

22

Metropolitan Police Department (“Metro”). The interviews were conducted at Mr. Meissner’s office

23

in New Port Richey, Florida, on July 7, 2004. Trial Transcript (“TT”), Vol. IV, 3/10/05, Ex. 24, pp. 173-

24

77.

25

2.

As set forth below, during Mr. Meissner’s testimony the state, over repeated defense

26

objections, was allowed to qualify him as an expert in determining whether an alleged child victim had

27

been coached. During direct examination, the following exchange occurred:

28

Q [Prosecutor] And is there rules about who should be in the room when
21

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 22 of 33

App. 0086
1

you actually talk to kid about abuse?

2

A Yeah. The only ones that are present for the interviews are the
interviewer and the interviewee or the child.

3
Q And why do you try to follow that rule?
4
5

A Well, we don't want coaching. We don't want - we want the child to be
as free from pressure, external pressure, as possible.

6

Q Did you feel after you interviewed A.S. or Nikole that there was any
concerns in your mind about coaching or external pressures?

7
A No.
8
Q And what gave you that impression?
9
10
11
12
13
14

A It was just - it was just the responses. They were child responses,
children responses. The weren't - I've interviewed children where they've
been - you know, they would name body parts like vagina and they would
talk about words they don't even know. An this was just MS. COFFEE: Your Honor, at this time I think what she's trying to elicit
is some kind of expert opinion and to - almost like a truth-telling thing,
a to whether he has some sort of expertise to know whether someone has
been coached. I don't think anyone can say that and I certainly don't think
he would have any qualification to say whether a child is coached or not
coached.

15
MS. GOETTSCH: Your Honor
16
THE COURT: So, the legal basis for that is?
17
18
19
20
21
22
23

MS. COFFEE: Well, I mean she's trying to elicit saying he's some - an
expert in whether kids are coaches (sic) or not coached. She would have
to lay the foundation for that. She hasn't done that and I'm not sure there's
any scientific or proper basis for that sort of expert testimony.
THE COURT: So far all I've heard is how he does things and why he
does interviews separately. I'm going to overrule the objection. Go ahead.
Q (By Ms. Goettsch) you were telling us about what, what you look for
and what would raise a red flag with you in your training and experience
as to what might be coaching or external influence.
MS. COFFEE: And I'll continue my objection to this whole line of
questioning about signs or if they are even signs of coaching.

24
25
26

THE COURT: Why don't you back up and lay foundation for whether or
not this generally occurs. Then I think he's qualified. Go ahead.

27

Q (By Ms. Goettsch) You've, you've receive training and experience as
to children who might have been coached or influenced in some way and
how the behave in your interviews?

28

A Correct.
22

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 23 of 33

App. 0087
1
2

Q Okay. And through your experience talking to kids, have you had an
occasion to talk to kids that you suspected might have been coached or
influenced in some way?

3

A Children that I feel may have been coached.

4

Q And based on that do you look for certain red flags in - when you're
dong an interview of child?

5
A Yes.
6
Q And what are those red flags?
7
8

A Well, they use, they use terminology that's way beyond their age. We
look for consistency; thing like this.

9

Q And did you see any of those red flags with A.S. or Nikole?

10
11
12

MS. COFFEE: And your Honor, again I, my problem is -- this is all based
on an opinion he holds in some interviews he does that he thinks some
children have been coached. It's not grounded in any kind of science.
THE COURT: I don't see - hear any legs objection. I don't find anything
objectionable. Please proceed.

13
Q (By Ms. Goettsch) You didn't see any of that with A.S. or Nikole?
14
A No.
15
(TT, Vol. IV, 3/10/05, Ex. 24, pp. 178-180, emphasis added).
16
17

MS. GOETTSCH: . . . Was there anything about A.S.'s demeanor, what
he told you, the nature of what he told you that raised a red flag with you
as to that he might not be telling the truth?

18
19

MR. SILVERSTEIN: Your Honor, objection again. Ms. Goettsch knows
that what a witness -

20

THE COURT: Legal basis for the objection?

21

MR. SILVERSTEIN: A witness cannot give a opinion about another
witness' credibility in a court of law. Ms. Goettsch knows this.

22
MS. GOETTSCH: And I'm not asking for that.
23
THE COURT: That's overruled.
24
Q (By Ms. Goettsch): Was there any red flags to you based 25
A No, no.
26
27

(Id., p. 186, emphasis added). Defense counsel followed up the objections with a motion for mistrial,

28

which was denied by the trial judge. (Id., pp. 214-217 & TT, Vol. V, Ex. 25, pp. 3-17).
23

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 24 of 33

App. 0088
1
2

3.

Metro Detective John Baltas later testified as follows with respect to arranging with

Meissner to set up the interviews of Nikole and A.S..

3

Q [Prosecutor] What happened from there?

4

A Well, it took a while. Jim got a hold of `em, Jim Meissner conducted
his interviews with the children, and he called me up and said that he did
do a forensic interview and that he believes the two children, Nikole and
A.S., were very credible an told the truth.

5
6
7

MR. SILVERSTEIN: Your Honor, at this point I'm going to object. I'm
going to move

8

MS. HOLTHUS: No objection to strike it.

9

MR. SILVERSTEIN: I'm going to move to strike an testimony about
Meissner's conclusions about these children.

10
COURT: I would sustain the objection. I'm going to ask the jury to
disregard any comments that this witness gives about the other witnesses'
testimony.

11
12

Ms. Holthus, you may continue.
13
14

(TT, Vol. V, Ex. 25, p. 89-90). While the court now recognized such testimony’s invalidity, Meisser’s

15

prior testimony remained in the record for the jury to consider.

16

4.

No foundation was ever laid that there even exists a specialized body of knowledge

17

capable of determining whether a child witness has been coached. And even if such specialized

18

knowledge was a legitimate field of expertise, there was no showing that Meissner possessed the “special

19

knowledge, skill, experience, training or education” to qualify him as an expert in such a field.

20

5.

The expert testimony also constituted an opinion on the alleged victims' credibility and

21

truthfulness. As such, it interfered with the jurors role as sole triers of fact and credibility. It further

22

interfered with cross-examination that had brought out that A.S., in particular, was highly likely to accept

23

anything Jessica told him as the truth, i.e. was very prone to the suggestion that anything Jessica said had

24

to be the truth or had to have really happened, whether he independently recollected it or not. Against

25

this backdrop, the receipt of expert testimony that neither A.S. nor Nikole had been coached on what to

26

believe or what to say in their child protective services interviews, amounted to a powerful endorsement

27

of the children's truthfulness in those interviews and, by extension, in their trial testimony. Such use of

28

expert opinion evidence to vouch for witnesses and inhibit effective cross-examination is improper.
24

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 25 of 33

App. 0089
1

6.

An expert opinion that the Schumacher children's interviews contained no “red flags”

2

indicative of coaching was resounding endorsement of the truthfulness of their claims and comment

3

upon their veracity. The fact that it is a putative expert witness who gives an endorsement of a witness'

4

credibility significantly increase the degree of undue prejudice from such an inadmissible opinion.

5

8.

The improper witness vouching was particularly prejudicial where the evidence against

6

Vontobel was not overwhelming. The state's case was limited to the testimony or three children (labeled

7

by the prosecutor as the “big three”). The prosecution admitted this limitation in its closing argument:

8
In many ways we told you - I think somebody said, basically we're
going to hear from some victims, an there's not going to be any other
physical evidence, and that's pretty much the case. And that is, in man
ways, the case. But that makes it kind of simple. You don't have a lot of
circumstantial evidence. You have, in many ways, better than that. You
have the direct evidence of the children who lived there.

9
10
11
12

TT, Vol. 31, 3/17/05, p.36.

13

. . . [O]ne of the hardest things in these cases, especially since it's been
so long, is to go back through the facts and say exactly which counts were
supported by the evidence. So again, it's your notes that count, but I tried
to chart out as best I could and this is primarily based upon the big three:
Jessicca, Nikole, and A.S., in terms of the actual account.

14
15
16

TT, Vol. 31, 3/17/05, p. 39 (emphasis added).

17

And that is it. So, at the conclusion, well, the kids have done their job,
and we're going to ask you to do your job and find him guilty of all but
the two counts.

18
19
20

TT, Vol. 31, 3/17/05, p. 47 (emphasis added).
9.

Given the closeness of the evidence, the testimony of the professional interviewer

21

improperly endorsing the veracity of the child-witnesses may well have tipped the jury’s decision to

22

guilty on essentially all counts. It cannot be concluded beyond a reasonable doubt that the impermissible

23

witness vouching had no impact on the outcome of the trial. Prejudicial impact increased as the

24

prosecution re-emphasized Meissner's impermissible witness vouching in its closing argument wheer

25

the state's attorney said:

26
27
28

First of all, we have James Meissner. He tells you that he interviewed
these kids separately, Nikole and A.S. separately, without Jessicca . . . He
also told you that there were no red flags as far as he was concerned.
There was nothing that in his experience gave him any concern about
reporting this back to the Las Vegas police.
25

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 26 of 33

App. 0090
1

TT, Vol. VIII, 3/17/05, Ex. 31, p. 87.

2

10.

Mr. Vontobel alleges that the state court’s disposition of this claim was contrary to, and

3

an unreasonable application of, clearly established federal law. He further alleges that the state court’s

4

disposition of this claim was an unreasonable determination of the facts in light of the evidence

5

presented.

6

11.

Accordingly, the witness vouching set forth above rendered petitioner’s trial

7

fundamentally unfair and violative of his Fourteenth Amendment right to due process of law. The writ

8

should be granted and Vontobel’s convictions vacated.

9

GROUND FOUR

10

PETITIONER’S CONVICTION IS INVALID UNDER THE
UNITED STATES CONSTITUTION’S GUARANTEES OF DUE
PROCESS AND TRIAL BEFORE AN IMPARTIAL JURY
BECAUSE THE PROSECUTOR IMPROPERLY MINIMIZED
THE STATE’S BURDEN OF PROOF UNDER THE
REASONABLE DOUBT STANDARD AT CLOSING ARGUMENT.

11
12
13

Statement of Exhaustion: This claim was presented as Argument III of “Appellant’s Opening
14
Brief on direct appeal. See Ex. 51.
15
1.

The court provided the following instruction to the jury on the concept of reasonable

16
doubt:
17
A reasonable doubt is one based on reason. It is not mere possible doubt
but is such a doubt as would govern or control a person in the more
weighty affairs of life. If the minds of the jurors, after the entire
comparison and consideration of all the evidence, are in such a condition
that they can say they feel an abiding conviction of the truth of the charge,
there is not a reasonable doubt. Doubt to be reasonable must be actual,
not mere possibility or speculation.

18
19
20
21
2.

At closing, the prosecutor twice misadvised the jury as the meaning of reasonable doubt:

22
23
24

MS. GOETTSCH: . . . Another thing to consider is reasonable doubt. I
encourage you, ladies and gentlemen, to back (sic) into the jury room and
look at what reasonable doubt is. It's not any doubt. It has to be
reasonable doubt. If you know that he did this, then he's guilty. It's not
a mysterious standard.

25

27

MR. SILVERSTEIN: Your Honor, I'm going to object. That is one of the
most unbelievable misstatements of the reasonable doubt standard I've
ever heard. If you know he's guilty, he's guilty? That is not the standard
in this courtroom.

28

THE COURT: The reasonable doubt -- the objection is noted and

26

26

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 27 of 33

App. 0091
1

sustained. The reasonable doubt instruction is contained within your jury
instructions, and I will remind you that that which is said by any of our
attorneys in. closing arguments is not evidence. Ms. Goettsch may
continue.

2
3

TT, Vol. VIII, 3/17/05, Ex. 31, p. 85 (emphasis added).
4
3.

Given the multiplicity of charged counts, the contradictory nature of the child-witnesses'

5
testimony, the lack of corroborative evidence and the improper witness vouching evidence, even the
6
slightest misrepresentation of the reasonable doubt standard and its manner of application gravely
7
endangered the return of a fair and just verdict. The prosecutor's declaration: “If you know that he did
8
this, then he’s guilty” was far from a slight misstatement but instead a blatant invitation to the jury to
9
simply ignore the standard of proof beyond a reasonable doubt and substitute for it some ethereal,
10
undefined notion of “knowing” that a defendant had committed the charged offenses, in lieu of
11
evaluating whether the state had proven its case beyond a reasonable doubt.
12
4.

The prejudicial impact is further increased by the presence of a juror (see Ground One

13
supra) already told that “he [Vontobel] wouldn't be here if he didn’t do something[,]” fertile ground for
14
yielding to the prosecutor's misrepresentation of the reasonable doubt standard.
15
5.

While the trial court did sustain defense counsel's objection, it should have sua sponte

16
declared a mistrial. In failing to do so, the trial court violated petitioner’s right to a fair trial under the
17
Due Process Clause of the Fourteenth Amendment to the United States Constitution and his Sixth
18
Amendment right to trial by a impartial jury.
19
6.

But the prosecutor was not through. Her very next words compounded the already

20
existing error:
21

27

MS. GOETTSCH: And lastly and tied to the reasonable doubt standard
is. Well, I believe the kids. I believe what they're saying is true, but the
evidence is not enough, not accurate, not following the law. There is a
jury instruction that tells you that if you believe the testimony of a victim
of sexual assault or lewdness, i.e. the kids of this case, if you believe
them beyond a reasonable doubt, that is enough to sustain a verdict of
guilty.
So it can't be a verdict of not guilty based on: Well, I believe the
kids. I think they're telling the truth, but I wanted something more. That's
against the law. You need to follow the law, and if you believe those kids
beyond a reasonable doubt, regardless of whether or not there's DNA or
anything else

28

MR. SILVERSTEIN: Your Honor, Your Honor, again I'm going to

22
23
24
25
26

27

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 28 of 33

App. 0092
1

object. This - that is a misstatement of the law, Your Honor
.

2
3

THE COURT: Ms. Goettsch, I'm going to ask you to, again, contain. I'm
going to overrule that objection, however, and ask you to contain you
comments to the standard that is set forth in the Instructions.

4

TT, Vol. VIII, 3/17/05, Ex. 31, p. 86). The first approach having been to interpret the reasonable doubt

5

test out of existence, this second approach invited the jury to apply the reasonable doubt standard to only

6

a portion of the evidence the so-called “big three” child witnesses. The reasonable doubt standard

7

applies to a case as a whole, encompassing an evaluation of all the evidence place before the jury. For

8

the prosecutor to suggest anything less than this violated petitioner’s constitutional rights to a fair trial

9

litigated before an impartial jury.

10

7.

Vontobel alleges that the state’s disposition of this claim was contrary to, and an

11

unreasonable application of, clearly established federal law. He further alleges that the state court’s

12

disposition of this claim was an unreasonable determination of the facts in light of the evidence

13

presented.

14

8.

Accordingly, the prosecutor’s repeated efforts to override the reasonable doubt instruction

15

or restrict its application to appraisal of the alleged victims’ testimony denied Vontobel his Fourteenth

16

Amendment right to due process of law and a fair trial and his Sixth Amendment right to trial by an

17

impartial jury. The writ should be granted and Vontobel’s conviction vacated.

18

GROUND FIVE

19

PETITIONER’S CONVICTION IS INVALID UNDER THE
UNITED STATES CONSTITUTION’S GUARANTEES OF DUE
PROCESS AND TRIAL BEFORE AN IMPARTIAL JURY
BECAUSE AT CLOSING ARGUMENT THE PROSECUTOR
IMPROPERLY TOLD THE JURY “TO DO YOUR JOB.”

20
21
22
23

Statement of Exhaustion: This claim was presented as Argument IV of “Appellant’s Opening
Brief on direct appeal. See Ex. 51.

24
1.

The prosecution's first round of closing argument ended with the following exchange:

25
26

MS. HOLTHUS. . . . And that is it. So, at the conclusion, well, the kids
have done their job, and we're going to ask you to do your job and find
him guilty of all but the two counts. Thank you.

27
28

MR. SILVERSTEIN: Your Honor, I'm going to object to any statement
that the jury needs to do his job to convict. The jury's job is to be fair in
28

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 29 of 33

App. 0093
1

this case, not to convict. And I would ask that be stricken.

2

THE COURT: I would agree, and direct the jury to be mindful of the
instructions that were given as to what their duty is. Thank you, Ms.
Holthus.

3
4
5

TT, Vol. VIII, 3/17/05, Ex. 31, p. 47 (emphasis added).
2.

Such remark constitutes prosecutorial misconduct since it pressures the jury to act as an

6

arm of the state rather than an impartial decision maker. It violated Vontobel’s Sixth and Fourteenth

7

Amendment rights to trial by an impartial jury and to due process of law.

8

3.

Vontobel alleges that the state’s disposition of this claim was contrary to, and an

9

unreasonable application of, clearly established federal law. He further alleges that the state court’s

10

disposition of this claim was an unreasonable determination of the facts in light of the evidence

11

presented.

12

4.

Accordingly, for the foregoing reasons, Vontobel was denied his Sixth and Fourteenth

13

Amendment rights to due process of law and a fair trial and to trial by an impartial jury. The writ should

14

be granted and Vontobel’s convictions vacated.

15

GROUND SIX

16

PETITIONER WAS DENIED HIS FOURTEENTH AMENDMENT
RIGHT TO DUE PROCESS OF LAW AND A FAIR TRIAL WHEN
THE TRIAL COURT INSTRUCTED THE JURY THAT A
SEXUAL ASSAULT VICTIM’S TESTIMONY DOES NOT NEED
TO BE CORROBORATED.

17
18
19
20
21

Statement of Exhaustion: This claim was presented as Argument V of “Appellant’s Opening
Brief on direct appeal. See Ex. 51.
1.

Over Vontobel’s objection, the trial court gave the following jury instruction:

22
There is no requirement that the testimony of victim of sexual assault
and/or lewdness with a minor be corroborated, and his or her testimony
standing alone, if believed beyond a reasonable doubt, is sufficient to
sustain a verdict of guilty.

23
24
25
26

Jury Instruction No. 21, Ex. 36.
2.

By stating that the “testimony of a victim” need not be corroborated, the instruction

27

implicitly and explicitly informs the jury that the district court has determined that a crime has been

28

committed and that there are, in fact, victims. Whether or not there is a “victim” in this case is a material
29

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 30 of 33

App. 0094
1

fact in issue to be decided by the jury. Vontobel consistently and adamantly maintained that the sexual

2

activity alleged by the complaining witnesses did not occur. The district court granted his pre-trial

3

motion in limine (Ex. 14), ruling that there should be no reference to “victims” but rather the

4

complainants should be referred to as “alleged victims.” Whether there was a “victim” in this case is

5

a material fact in issue to be decided by the jury not pre-determined by an inappropriately worded jury

6

instruction delivered by the trial judge. The trial court, occupying a position of considerable knowledge,

7

wisdom and authority in the eyes of the jurors, would thereby be seen as placing its implicit stamp of

8

approval on the notion that crimes have occurred and that the complainants have been “victimized.”

9

3.

The proposed instruction also singles out the complainants’ testimony as somehow

10

special and deserving of particular emphasis and consideration, thereby contradicting the jury’s rule as

11

determiner of the weight and credibility of testimony.

12

4.

The meaning of the term “uncorroborated” is not self-evident. Because of the instruction

13

jurors might credit baseless testimony and accept without question the alleged victims’ testimony, while

14

ignoring conflicting evidence. Absent a definition of “uncorroborated” the instruction is confusing and

15

misleading.

16

5.

The instruction’s vice is especially prominent in cases such as Vontobel's with a

17

multitude of inconsistencies between trial testimony and pre-trial statements of the three involved

18

children and where the state sought to minimize its burden of proof. See Ground Four supra. If the

19

jurors believed that they could convict without considering these discrepancies Vontobel was denied his

20

constitutional right to a fair trial and to have the state held to the standard of proving guilt beyond a

21

reasonable doubt.

22

6.

Vontobel alleges that the state’s disposition of this claim was contrary to, and an

23

unreasonable application of, clearly established federal law. He further alleges that the state court’s

24

disposition of this claim was an unreasonable determination of the facts in light of the evidence

25

presented.

26

7.

Accordingly, the trial court’s inclusion of Instruction No. 21 in its charge to the jury

27

improperly lessened the state’s burden to prove guilt beyond a reasonable doubt, denying Vontobel his

28

Sixth and Fourteenth Amendment rights to due process of law and a fair trial. The writ should be
30

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 31 of 33

App. 0095
1

granted and Vontobel’s convictions vacated.

2

GROUND SEVEN

3

VONTOBEL’S CONVICTION UNDER NEV. REV. STAT. §
201.210 FOR OPEN AND GROSS LEWDNESS VIOLATES HIS
RIGHT TO DUE PROCESS OF LAW AND A FAIR TRIAL
UNDER THE FOURTEENTH AMENDMENT BECAUSE THE
STATUTE IS VOID FOR VAGUENESS.

4
5
6
7
8
9

Statement of Exhaustion: This claim was presented as Argument VI of “Appellant’s Opening
Brief on direct appeal. See Ex. 51.
1.

Vontobel was convicted of one count of open or gross lewdness in violation of NRS

201.210, which reads in its entirety:

10

1.
A person who commits any act of open or gross lewdness is
guilty:

11
(a) For the first offense, of a gross misdemeanor.
12
(b) For any subsequent offense, of category n felony and shall be
punished as provided in NRS 193.130.

13
14
15

2.
For the purposes of this section, the breast feeding of a child by
the mother of the child does no constitute an act of open or gross
lewdness.

16

The statute is impermissibly vague in that it fails to provide sufficient notice to enable ordinary people

17

to understand what conduct is prohibited, by not sufficiently defining the specific acts that would

18

constitute violation of that statute. The trial court committed constitutional error in denying Vontobel’s

19

“Motion to Declare NRS 201.210 Unconstitutional” and the included motion to dismiss (11/15/04

20

Trans., Ex. 82, pp. 1-7).

21

2.

No definitions are given for the terms “open,” “gross” or “lewdness”. All that can be said

22

is that it is not breast feeding. Such a penal statute must define a criminal offense with sufficient

23

definiteness so that ordinary people can understand the prohibited conduct and without encouraging

24

arbitrary and discriminatory enforcement.

25

3.

The touchstone of the void for vagueness doctrine is to ensure that the statute provides

26

sufficient guidelines to prevent standardless enforcement by police and prosecutors. Since Nev. Rev.

27

Stat. § 201.210 does not define “open or gross lewdness” and does not clarify the types of behavior

28

considered to amount to open or gross lewdness, it gives unfettered discretion to law enforcement to
31

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 32 of 33

App. 0096
1
2

establish their own standards and interpretations.
4.

Criminal statutes set boundaries, and they must do so in constitutionally acceptable

3

manner, i.e. by identifying specific conduct deemed unlawful so individuals will know what is

4

permissible. No boundary is set in Nevada on “open or gross lewdness.” A trial jury is left to its own

5

imagination and preconceived notions of what that offense might be. Subjecting Vontobel to

6

prosecution under such a an unconstitutionally vague statute deprived him of his right to due process

7

and to a fair trial under the Fourteenth Amendment to the United States Constitution.

8

6.

Vontobel alleges that the state’s disposition of this claim was contrary to, and an

9

unreasonable application of, clearly established federal law. He further alleges that the state court’s

10

disposition of this claim was an unreasonable determination of the facts in light of the evidence

11

presented.

12

7.

Accordingly, Vontobel’s Count 12 conviction for an act of “open or gross lewdness”

13

under Nev. Rev. Stat. § 201.210 denied him his right to due process of law and a fair trial under the

14

Fourteenth Amendment in that such statute was void for vagueness and Vontobel did not have fair notice

15

of what the law prohibited. The writ should be granted and such conviction vacated.

16

IV.

17

PRAYER FOR RELIEF

18

Accordingly, Vontobel respectfully requests that his Court:

19

1.

20
21
22

Issue a writ of habeas corpus to have him brought before the Court so that he may be

discharged from his unconstitutional confinement;
2.

Conduct an evidentiary hearing at which proof may be offered concerning the allegations

in this petition; and

23

3.

24

DATED this 17th day of March, 2011.

25

Grant such other relief that the Court deems just and proper.

LAW OFFICES OF THE
FEDERAL PUBLIC DEFENDER

26
27

By

/s/ Paul G. Turner
PAUL G. TURNER
Assistant Federal Public Defender

28
32

Case 3:10-cv-00073-LRH-VPC Document 23

Filed 03/17/11 Page 33 of 33

App. 0097
1

CERTIFICATE OF SERVICE

2

The undersigned hereby certifies that she is an employee in the office of the Federal Public

3

Defender for the District of Nevada and is a person of such age and discretion as to be competent to

4

serve papers.

5
6

That on March 17, 2011, she served a true and accurate copy of the foregoing to the United States
District Court, who will e-serve the following addressee:

7
8
9

Victor H. Schulze , II
Senior Deputy Attorney General
Nevada Attorney General's Office
555 E. Washington Ave, Suite 3900
Las Vegas, NV 89101

Gerald VonTobel #86814
Northern Nevada Correctional Center
P.O. Box 7000
Carson City, NV 89702

10
11
12
13
14

/s/ Leianna Montoya
An Employee of the Federal Public
Defender’s Office

15
16
17
18
19
20
21
22
23
24
25
26
27
28
33

Case 3:10-cv-00073-LRH-VPC Document 26-19

App. 0098

Filed 03/18/11 Page 2 of 2

Case 3:10-cv-00073-LRH-VPC Document 26-15

App. 0099

Filed 03/18/11 Page 2 of 14

Case 3:10-cv-00073-LRH-VPC Document 26-15

App. 0100

Filed 03/18/11 Page 3 of 14

Case 3:10-cv-00073-LRH-VPC Document 26-15

App. 0101

Filed 03/18/11 Page 4 of 14

Case 3:10-cv-00073-LRH-VPC Document 26-15

App. 0102

Filed 03/18/11 Page 5 of 14

Case 3:10-cv-00073-LRH-VPC Document 26-15

App. 0103

Filed 03/18/11 Page 6 of 14

Case 3:10-cv-00073-LRH-VPC Document 26-15

App. 0104

Filed 03/18/11 Page 7 of 14

Case 3:10-cv-00073-LRH-VPC Document 26-15

App. 0105

Filed 03/18/11 Page 8 of 14

Case 3:10-cv-00073-LRH-VPC Document 26-15

App. 0106

Filed 03/18/11 Page 9 of 14

Case 3:10-cv-00073-LRH-VPC Document 26-15

App. 0107

Filed 03/18/11 Page 10 of 14

Case 3:10-cv-00073-LRH-VPC Document 26-15

App. 0108

Filed 03/18/11 Page 11 of 14

Case 3:10-cv-00073-LRH-VPC Document 26-15

App. 0109

Filed 03/18/11 Page 12 of 14

Case 3:10-cv-00073-LRH-VPC Document 26-15

App. 0110

Filed 03/18/11 Page 13 of 14

Case 3:10-cv-00073-LRH-VPC Document 26-15

App. 0111

Filed 03/18/11 Page 14 of 14

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0112

Filed 03/18/11 Page 2 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0113

Filed 03/18/11 Page 3 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0114

Filed 03/18/11 Page 4 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0115

Filed 03/18/11 Page 5 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0116

Filed 03/18/11 Page 6 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0117

Filed 03/18/11 Page 7 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0118

Filed 03/18/11 Page 8 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0119

Filed 03/18/11 Page 9 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0120

Filed 03/18/11 Page 10 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0121

Filed 03/18/11 Page 11 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0122

Filed 03/18/11 Page 12 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0123

Filed 03/18/11 Page 13 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0124

Filed 03/18/11 Page 14 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0125

Filed 03/18/11 Page 15 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0126

Filed 03/18/11 Page 16 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0127

Filed 03/18/11 Page 17 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0128

Filed 03/18/11 Page 18 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0129

Filed 03/18/11 Page 19 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0130

Filed 03/18/11 Page 20 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0131

Filed 03/18/11 Page 21 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0132

Filed 03/18/11 Page 22 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0133

Filed 03/18/11 Page 23 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0134

Filed 03/18/11 Page 24 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0135

Filed 03/18/11 Page 25 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0136

Filed 03/18/11 Page 26 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0137

Filed 03/18/11 Page 27 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0138

Filed 03/18/11 Page 28 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0139

Filed 03/18/11 Page 29 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0140

Filed 03/18/11 Page 30 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0141

Filed 03/18/11 Page 31 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0142

Filed 03/18/11 Page 32 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0143

Filed 03/18/11 Page 33 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0144

Filed 03/18/11 Page 34 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0145

Filed 03/18/11 Page 35 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0146

Filed 03/18/11 Page 36 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0147

Filed 03/18/11 Page 37 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0148

Filed 03/18/11 Page 38 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0149

Filed 03/18/11 Page 39 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0150

Filed 03/18/11 Page 40 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0151

Filed 03/18/11 Page 41 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0152

Filed 03/18/11 Page 42 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0153

Filed 03/18/11 Page 43 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0154

Filed 03/18/11 Page 44 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-5

App. 0155

Filed 03/18/11 Page 45 of 45

Case 3:10-cv-00073-LRH-VPC Document 26-8

App. 0156

Filed 03/18/11 Page 2 of 5

Case 3:10-cv-00073-LRH-VPC Document 26-8

App. 0157

Filed 03/18/11 Page 3 of 5

Case 3:10-cv-00073-LRH-VPC Document 26-8

App. 0158

Filed 03/18/11 Page 4 of 5

Case 3:10-cv-00073-LRH-VPC Document 26-8

App. 0159

Filed 03/18/11 Page 5 of 5

